<html>
<title> - THE BUDGET, DIPLOMACY, AND DEVELOPMENT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



               THE BUDGET, DIPLOMACY, AND DEVELOPMENT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 28, 2017

                               __________

                           Serial No. 115-18

                               __________

        Printed for the use of the Committee on Foreign Affairs


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 

                                  or 

                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                       U.S. GOVERNMENT PUBLISHING OFFICE
                
24-830PDF                       WASHINGTON: 2017
  _____________________________________________________________________________
  For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800; DC area (202) 512-1800
            Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director


               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Stephen D. Krasner, Ph.D., senior fellow, Hoover Institution.....     5
Ms. Danielle Pletka, senior vice president, Foreign and Defense 
  Policy Studies, American Enterprise Institute..................    13
The Honorable R. Nicholas Burns, Roy and Barbara Goodman Family 
  Professor of Diplomacy and International Relations, Belfer 
  Center for Science and International Affairs, John F. Kennedy 
  School of Government, Harvard University (former Under 
  Secretary for Political Affairs, U.S. Department of State).....    21

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Stephen D. Krasner, Ph.D.: Prepared statement....................     7
Ms. Danielle Pletka: Prepared statement..........................    16
The Honorable R. Nicholas Burns: Prepared statement..............    23

                                APPENDIX

Hearing notice...................................................    68
Hearing minutes..................................................    69
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York:
  Chart submitted for the record.................................    71
  Article submitted for the recod................................    72
The Honorable Brad Sherman, a Representative in Congress from the 
  State of California:
  Article submitted for the record...............................    75
  Letter submitted for the record................................    77
The Honorable Albio Sires, a Representative in Congress from the 
  State of New Jersey: Material submitted for the record.........    85
The Honorable Theodore E. Deutch, a Representative in Congress 
  from the State of Florida: Material submitted for the record...    93
The Honorable Robin L. Kelly, a Representative in Congress from 
  the State of Illinois: Material submitted for the record.......    99
The Honorable Norma J. Torres, a Representative in Congress from 
  the State of California: Material submitted for the record.....   106
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........   107
Written response from Ms. Danielle Pletka to question submitted 
  for the record by the Honorable Eliot L. Engel.................   109
Written responses from the Honorable R. Nicholas Burns and 
  Stephen D. Krasner, Ph.D., to questions submitted for the 
  record by the Honorable William Keating, a Representative in 
  Congress from the Commonwealth of Massachusetts................   110
Written responses from the witnesses to questions submitted for 
  the record by the Honorable Bradley S. Schneider, a 
  Representative in Congress from the State of Illinois..........   112


 
                 THE BUDGET, DIPLOMACY, AND DEVELOPMENT

                              ----------                              


                        TUESDAY, MARCH 28, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:10 a.m. in 
room 2172, Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    Two weeks ago the administration presented its budget 
blueprint--or as they called it, ``the skinny budget,'' as the 
press has called it--which proposes significant reductions to 
the programs and operations of the State Department and the 
Agency for International Development, and the elimination of 
several independent agencies. Being ``skinny,'' this budget 
raises more questions than it answers, but here is what we do 
know.
    While it proposes an overall cut of some 32 percent, the 
budget ``protects'' several programs that enjoy strong 
congressional support, including for HIV/AIDS, for malaria, and 
for vaccines. Funding for Embassy security and security 
assistance for Israel are maintained at current levels. These 
are good priorities.
    But I am concerned about how cuts would impact other 
priorities, including efforts to combat terrorists, poachers, 
human traffickers. U.S. leadership was key to stopping Ebola in 
West Africa, and continued engagement is needed to address 
future threats before they hit our shores. And many are rightly 
worried about how proposed cuts will impact humanitarian 
assistance at a time when more than 65 million people have been 
displaced around this globe by conflict and at a time, frankly, 
when famine looms in four countries.
    When it comes to development, our top focus should be rule 
of law. It should be economic growth. Promoting reforms to 
create environments for growth, as much of Asia did, several 
decades ago, is really crucial to development success. No 
amount of aid can overcome corruption. No amount of aid can 
overcome statist economic policies and weak property rights.
    But just as aid can't be an entitlement for those overseas, 
it shouldn't be an entitlement here at home. This includes food 
aid, which for too long has been treated as an entitlement for 
some shippers rather than as a humanitarian program meant to 
save lives. I am very proud of the bipartisan reforms that this 
committee has achieved to make food assistance more effective 
and more efficient, and I look forward to doing more.
    As the budget process advances, and the committee 
establishes its priorities, we look forward to hearing from 
Secretary of State Tillerson. His management background will be 
a real asset as we focus on the Trump administration's attempts 
to reorganize the State Department.
    One thing I would like to see is national security agencies 
with the flexibility to shape their workforce to meet the 
challenges of today. Agencies should have the authority to add 
civilian personnel with needed skills and eliminate positions 
that are no longer needed. Too many resources and personnel are 
focused in Washington, not in the field, and that is at every 
level.
    Everyone can agree that our assistance programs should be 
improved. Yet the State Department has continually failed to 
develop a meaningful strategic planning process that would 
align aid and our national security objectives. There have been 
innumerable studies detailing aid shortcomings, and their 
countless recommendations, I am afraid to say, have mainly been 
ignored. Here Congress deserves some blame, by writing foreign 
aid laws that burden the agencies with too many objectives and 
too many restrictions. We will do our part to improve this, and 
I look forward to working with the administration, because many 
of these programs are frankly very critical to our national 
security. We shouldn't be cutting to the bone.
    And with that I turn to our ranking member, Mr. Eliot 
Engel, of the Bronx, New York.
    Mr. Engel. Thank you, Mr. Chairman. I have got to get you 
to the Bronx one of these days. Anyway, thank you, Mr. 
Chairman.
    To our witnesses, welcome to the Foreign Affairs Committee. 
We are grateful for your time and expertise. I must say that I 
find myself deeply troubled by the direction American foreign 
policy is heading. Members of this committee on both sides of 
the aisle have worked hard to advance American diplomacy and 
development efforts. We may not always agree 100 percent of the 
time on the best way forward, but I like to think we all see 
the value in robust bipartisan support for American 
international affairs. So I am sure other members were as 
shocked as I was when the White House released its Fiscal Year 
2018 budget calling for a 31 percent cut to American diplomacy 
and development efforts.
    In my view, cutting the international affairs budget by 
even a fraction of that would be devastating. We haven't seen 
many details, but a cut that drastic would surely mean that too 
many efforts and initiatives that do so much good would end up 
on the chopping block.
    And then last night, we learned that the administration is 
seeking $2.8 billion in cuts to the international affairs 
budget, not down the road, but right now. I can just imagine an 
American diplomat sitting at a negotiating table who gets 
passed a note saying, sorry, our funding for this meeting just 
ran out.
    But here is the bottom line. Slashing diplomacy and 
development puts American lives at risk. If we no longer have 
diplomacy and development as tools to meet international 
challenges, what does that leave? The answer is simple: The 
military. Don't get me wrong; I have always supported a strong 
national defense, but I also support using military force only 
as a measure of last resort. We should not send American 
servicemembers into harm's way unless we have exhausted every 
other option. If we are not investing in diplomacy and 
development, we aren't even giving those other options a 
chance.
    We rely on diplomacy to resolve conflicts across 
negotiating tables, at multilateral gatherings, and in quiet 
corners so that we don't need to resolve them down the line on 
the battlefield. Our diplomats work to strengthen old alliances 
and build new bridges of friendship and shared understanding. 
Development helps to lift countries and communities up today so 
they can become strong partners of us on the global stage 
tomorrow.
    A lot of us think we have a moral obligation to help cure 
disease, improve access to education, and advance human rights. 
But even if it weren't the right thing to do, it would be the 
smart thing to do because those efforts lead to greater 
stability, more responsive governments, stronger rule of law, 
and populations that share our values and priorities. Poverty 
and lack of opportunity, on the other hand, provide fertile 
ground for those who mean us harm.
    All these efforts, by the way, cost cents on the dollar 
compared to military engagement. People think international 
affairs and foreign aid are a massive chunk of the Federal 
budget. The chart behind me shows how it actually stacks up: 
1.4 percent, less than 2 percent. And if we make that sliver of 
the pie even smaller, it will come back on us in spades.
    The diseases we don't combat will reach our shores. The 
communities on which we turn our backs may be the next 
generation of people who mean us harm, and the conflicts we 
fail to diffuse may well grow into the wars we need to fight 
later at a much higher cost in terms of American blood and 
treasure. Just imagine having to tell the parents of a young 
American soldier that their son or daughter was killed in 
battle because we weren't willing to spend the tiny sums needed 
to prevent the conflict.
    Fortunately the Congress is a coequal branch of government. 
We decide how much to invest in our international affairs, not 
the White House. Congress will devote resources to push back 
against the Kremlin's efforts to spread disinformation and 
destabilize our allies, just like they did to the United States 
during last year's election campaign.
    I don't understand this willingness to play footsie with 
Vladimir Putin. I think that we know him for what he is. So I 
am hopeful that as we move forward with next year's spending 
bills, we continue to provide our diplomatic and development 
efforts the support they need and the support they have 
received under Republican and Democratic Presidents alike.
    However, there are things we cannot control when it comes 
to foreign policy that I want to briefly mention in closing. As 
far as I can tell, this administration is doing all it can to 
sideline the State Department. Aside from Secretary of State, 
the permanent representative to the U.N., and four 
ambassadorships, the President has not nominated a single State 
Department official. The State Department cannot make policy 
without leaders in place.
    It is also clear that our career diplomats' expertise is 
being ignored. In 2 months we have suffered embarrassments in 
our relationships with Mexico, Australia, the UK, Germany, and 
NATO. We handed China what is being viewed as a major 
diplomatic victory and sent confusing signals to our friends in 
the Asia Pacific when the Secretary of State used language that 
aligns with China's world view.
    The Secretary of State, and I had a nice conversation with 
him on the phone, but he has not delivered a major policy 
address or held a press availability. And on his last trip he 
took a single journalist, a writer for a right-leaning blog, 
which is a major departure from the longstanding practice of 
Secretaries of State travelling with the press corps. The 
Secretary told her that he is not a big media press access 
person. He said this on a flight to China.
    And last night we learned that the State Department is 
stopping the daily press briefing. The world's window into 
American diplomacy and foreign policy is closing. No speeches, 
no press conferences, no media briefings. Does that sound like 
the way the United States makes policy or leads on global 
issues? And then we couple it with this tremendous proposal of 
kickbacks.
    Together, taken with the draconian budget proposal, I feel 
what message are we sending to the world? The United States is 
the global standard bearer for freedom, justice, and democracy. 
If we cede our role as a global leader, make no mistake, 
someone will step into the void. It could very well be another 
power that doesn't share our values or our interests. Think 
Russia, think cozying up to Putin. Frankly I don't understand 
it. So we cannot allow that to happen. I am committed to 
ensuring that it doesn't.
    And I am interested to hear the views of our witnesses and 
colleagues on the committee.
    Thank you. And I yield back.
    Chairman Royce. Thank you, Mr. Engel. We are joined this 
morning by a distinguished panel. We have Dr. Stephen Krasner, 
senior fellow at the Hoover Institution at Stanford University. 
Previously Dr. Krasner served at the State Department, where he 
focused on foreign assistance reform.
    We have Ms. Danielle Pletka, senior vice president for 
foreign and defense policy studies at the American Enterprise 
Institute. Previously Dani was a senior professional staff 
member on the Senate Foreign Relations Committee where she 
specialized in the Near East and South Asia.
    And we have Ambassador Nick Burns, the Roy and Barbara 
Goodman Family Professor of Diplomacy and International 
Relations at the Harvard Kennedy School of Government. He 
served in the United States Foreign Service for 27 years, 
during which time he served as the Under Secretary of State for 
Political Affairs and as an Ambassador at multiple posts.
    And so without objection, the witnesses' full prepared 
statements will be made part of the record, and all of the 
members here will have 5 calendar days to submit any statements 
or any questions or any extraneous material that they wish to 
submit into the record.
    And, Dr. Krasner, we would ask that you begin and ask our 
panelists to please summarize your remarks to 5 minutes, and 
then we will go to questions back and forth from the members of 
the committee.


 STATEMENT OF STEPHEN D. KRASNER, PH.D., SENIOR FELLOW, HOOVER 
                          INSTITUTION

    Mr. Krasner. Thank you, Mr. Chairman. Thank you Ranking 
Member Engel.
    Chairman Royce. And one other thing, Dr. Krasner, make sure 
all of you hit the red button right there.
    Thank you.
    Mr. Krasner. The talk button. Thank you.
    Chairman Royce, Ranking Member Engel, and other 
distinguished members of this committee, thank you for the 
opportunity to testify before you this morning.
    American national security requires that we use all three 
critical tools in our arsenal: Defense, development, and 
diplomacy. Losing any one of these instruments of national 
power would threaten the security of the United States and the 
global order from which we have benefitted. Poorly governed, 
failing, or weak malign States pose three threats to the United 
States and our core allies.
    First, failed and badly governed states provide safe havens 
for radicalized Salafist Islamic groups such as ISIS and al-
Qaeda, places where they can train adherents, propagate their 
message, and refine their ideology.
    Second, and the chairman has already alluded to this, 
naturally occurring pandemic diseases could kill hundreds of 
thousands or millions of people. The most well known of these 
diseases, HIV/AIDS and Ebola, have been difficult to transmit. 
A disease, however, that was transmissible through the air 
instead of via bodily fluids could kill hundreds of thousands 
or millions of Americans. Stopping these diseases when they 
first break out is our best line of defense.
    Third, massive migration threatens liberal and humanitarian 
values. There are no good policy options to address such 
movements once they begin. Accepting unlimited numbers of 
individuals is untenable. Sending refugees back to unsafe 
countries could bring humanitarian crises. Our best policy 
option is to prevent such flows in the first place. We ignore 
badly governed, failed, and maligned states at our peril.
    At the same time, it is very difficult to put countries 
securely on the path to democracy and a market-oriented 
economy. There is no natural progression from poverty to 
prosperity, from autocratic rule to democratic rule. Although 
foreign assistance has been a widely accepted practice for 70 
years, its record of accomplishments is thin.
    We need to rethink the objectives of foreign assistance to 
distinguish foreign assistance from humanitarian programs, 
which save lives, even if they do not change political orders. 
We need to identify programs that are consistent with our 
interests and with the interests of political elites in target 
states.
    The fundamental objective of our foreign assistance program 
should be what I have called SHE: Security, health, and 
economic growth. These three goals are consistent with our 
interests and with the interests of elites in target countries, 
even autocratic elites. All leaders want effective security. 
Leaders will welcome programs that improve health, such as 
PEPFAR. Better health is the big success story of the postwar 
period. Life expectancies have gone up 20 or 30 years, even in 
the poorest countries.
    All leaders will accept some economic growth if that growth 
does not threaten their own position. The most effective way to 
encourage economic growth is to provide incentives for leaders 
in poorly governed states. One example of such a program is the 
Millennium Challenge Account, which I worked on when I was at 
the NSC, and which has not been replicated in any other 
country.
    In addition to security, health, and economic growth, there 
are two other objectives that American foreign assistance 
broadly understood can address. First, we can limit the impact 
of humanitarian crises. USAID has expertise in addressing such 
crises. Second, we may be able in some special circumstances to 
stop conflicts before they spread. I have been a member of the 
Board of Directors of the United States Institute of Peace 
since 2008. The Institute works in very dangerous places in the 
world, such as Afghanistan and Iraq. It has helped to mitigate 
conflict in places like Tikrit. The entire budget of USIP is 
$35 million a year, about the cost of maintaining one platoon 
in Afghanistan for a year.
    Our foreign assistance should aim then at these three 
modest objectives: Better security, improved health, some 
economic growth, and should address humanitarian crises and 
attempt to mitigate conflict. Diplomacy and development are 
complements to defense, not rivals.
    Effective American leadership requires the three Ds: 
Defense, diplomacy, and development. Cutting development and 
diplomacy would make us weaker, not stronger. The United States 
needs all three instruments of national power, not just one.
    Thank you very much for allowing me to share these views.
    [The prepared statement of Mr. Krasner follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                              ----------                              

    Chairman Royce. Thank you.
    Dani.

   STATEMENT OF MS. DANIELLE PLETKA, SENIOR VICE PRESIDENT, 
    FOREIGN AND DEFENSE POLICY STUDIES, AMERICAN ENTERPRISE 
                           INSTITUTE

    Ms. Pletka. Good morning, Mr. Chairman, Ranking Member 
Engel, members of the committee. Thank you for inviting me. 
Anything you disagree with, please blame on the DayQuil that I 
pounded before I came to sit down at the dais.
    We are here to talk about the 2018 budget, and frankly I 
think a lot of us agree on some of the base issues. We are 
talking about a 28.7 percent reduction in the 150 account, plus 
or minus. What worries me most about this budget presentation 
is that the spirit that seemed to animate it was more a list of 
budget cuts rather than what is really needed, which is a new 
vision for our foreign policy.
    The Trump administration suggested to the American people 
that the reason that they were making these cuts was because we 
want to plus up in the fight against ISIS, which is certainly a 
worthy goal. But the Defense Department's budget is actually 
not the 10 percent it was portrayed to be. It is, in fact, a 3 
percent increase over the 27 requested number from the Obama 
administration. So we are not going to be beating ISIS with 
that extra 3 percent. I hate to say it.
    In addition, while the optics of a cut to the State 
Department and USAID and all related agencies may on the 
surface appear to prioritize this ISIS/al-Qaeda fight over the 
soft power activities of the State Department and AID, there is 
really nothing to suggest that the fight against Islamist 
extremism is a job for DOD alone. Both of you have said this. I 
think the three of us agree about that.
    In a statement, last week actually, at the Global Coalition 
to Counter ISIS Conference in Washington, Secretary of State 
Tillerson said, and I am quoting here, ``We must ensure our 
respective nations' precious and limited resources are devoted 
to preventing the resurgence of ISIS and equipping war-torn 
communities to take the lead in rebuilding their institutions 
and returning to stability.'' That sounds right. But the 
military alone cannot, to paraphrase the Secretary, rebuild 
institutions and return nations to stability. That is really a 
job for State and USAID and others.
    What we have learned, as Dr. Krasner said, in the post-9/11 
era is that stable government is really the sine qua non of 
stopping these groups from moving in and beginning to threaten 
the local populations and us. Okay. There is the case against 
it.
    On the other hand, I have to say, I am a little thrown off 
by the complete hysteria that has attended the announcement of 
the President's proposed budget cuts. First of all, OCO 
numbers, Overseas Contingency Operation numbers, have plused up 
the State Department budget to the point where it is actually 
above where it was. Now, I understand that OCO is not a good 
way to do business. Nonetheless, we do need to understand that 
there is extra money there.
    In addition, and I have to disagree with Dr. Krasner here, 
as somebody at a nongovernment-funded think tank in Washington, 
I have an objection to using my tax dollars and the American 
people's tax dollars to pay for think tanks all over 
Washington. There are places where we can cut the budget.
    The right reaction here is somewhere between complacency 
and hysteria. First, the American people may indeed be wrong to 
think that vast quantities of our GDP are being shipped off to 
ungrateful foreigners, but they are not wrong in assuming that 
some of it is wasted. The State Department inspector general 
testified earlier this month before House Appropriations and 
said that she identified top five challenges for USAID, and I 
will just paraphrase some of it: That they were a weak project 
design, monitoring, lack of internal controls, lack of local 
capacity and qualified personnel to execute projects, 
complexity in coordinating and implementing foreign assistance, 
and leaving vulnerable projects to fraud, waste, and abuse. 
Now, that is not what any of us want to hear about how AID is 
operating.
    So to expand on that theme, it is totally appropriate for 
the American people to ask what has happened with the $20 
billion we have spent in Pakistan over the last 15 years or the 
$100 billion that we have spent in Egypt. Has it, in fact, 
served our interests and our values? Much of the irritation has 
focused on AID, but State has its own issues. It really hasn't 
evolved, as I think you have said, as an organizational 
structure since 1945. It has dozens and dozens of special 
envoys who are workarounds where there need to be genuine 
reforms.
    So the right question to ask here for authorizers and 
appropriators is not how to restore every single penny back to 
the 150 account. It is rather where judicious cuts and reforms 
can be made that will enable effective programs to continue. 
Because what all of us know is that what the American people 
will support is effective programs.
    As you consider the question, set aside input-oriented 
programs. Don't ask what they have put in. Ask what we get out. 
Ask who is doing the contracting. How many people are being 
hired? How many people are working?
    One last bugaboo--and I am going to go 30 seconds over or 
20 seconds over my time if you don't get cross with me about 
it. Isn't it time that Congress ask itself why the State 
Department's Office of Inspector General has an appropriation 
of $66 million last year and employs more than 200 people at 
main State? It is increasingly a major component of all of our 
aid programs. If there is that much waste and fraud and abuse 
built into our assistance programs, shouldn't we be looking at 
the system itself rather than hiring more auditors and 
inspectors?
    Last, if the foreign policy machinery that has been 
operating under the Foreign Assistance Act of 1961 for all too 
long--I know because I was born after 1961, I am happy to say--
isn't it time to start to consider whether we need a new 
authorizing mechanism, something new and something fresh? I 
know you have amended it tens of thousands of times, but it is 
time to look at the underlying statute.
    Last, a world led by the United States of America really is 
a better world, and foreign assistance is a wise investment; 
but even the best of investments need close supervision, 
rethinking, reform, and aggressive oversight.
    Thank you and especially for the extra time.
    [The prepared statement of Ms. Pletka follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                              ----------                              

    Chairman Royce. Thank you, Ms. Pletka. Ambassador Burns.

 STATEMENT OF THE HONORABLE R. NICHOLAS BURNS, ROY AND BARBARA 
    GOODMAN FAMILY PROFESSOR OF DIPLOMACY AND INTERNATIONAL 
RELATIONS, BELFER CENTER FOR SCIENCE AND INTERNATIONAL AFFAIRS, 
   JOHN F. KENNEDY SCHOOL OF GOVERNMENT, HARVARD UNIVERSITY 
(FORMER UNDER SECRETARY FOR POLITICAL AFFAIRS, U.S. DEPARTMENT 
                           OF STATE)

    Ambassador Burns. Thank you, Mr. Chairman, Mr. Engel, 
members of the committee. Thank you for the opportunity to 
testify.
    I just have a couple of points, Mr. Chairman, to summarize 
my written testimony. And you correctly noted I was a career 
member of the Foreign Service. I worked in Republican and 
Democrat administrations in the White House and State 
Department, and based on that, first, I think that the Trump 
administration's proposed budget cuts that do total 31 percent 
for State and AID will put American national security at risk. 
It will cripple the work of our career diplomats and our AID 
professionals because these are enormous reductions by 
historical standards.
    I don't think they can be implemented over the next year. I 
know there is some thought that perhaps they could be 
implemented over the next 3 or 4 years. I think that would do 
great damage to the effectiveness of the men and women of the 
State Department and USAID. There has even been a suggestion 
that perhaps we are entering a historical period of no foreign 
conflicts, and therefore the State Department can wind down its 
work. In my testimony I detail the most complex foreign policy 
agenda that any American President has faced. That is what 
President Trump faces now. We are certainly not going to see an 
end to conflict in Asia or the Middle East.
    Second, the budget takes direct aim at essential programs. 
A 30 percent cut in counternarcotics, that is of direct 
interest to protect the American people against the drug trade, 
that program.
    You mentioned Mr. Chairman, the fact that there are four 
famines underway in the world today. We need to be on the front 
lines with USAID to fight them. You mentioned very correctly 
Ebola and our necessity of preventing and dealing with 
pandemics in the world as we have. There is a massive reduction 
in funding for the very U.N. agencies--the food programs, the 
public health programs, the development programs--that actually 
do work that the United States then does not have to do. In 
zeroing out institutions like the U.S. Institute for Peace, I 
think it is extremely ill--advised.
    Third point, Mr. Chairman, the budget breaks the vital link 
that every Republican President and Democratic President have 
always seen to be essential, and both of my colleagues have 
mentioned it, that defense and diplomacy and development have 
to coexist together. And that was certainly one of the 
takeaways of my professional career, that we in the State 
Department can often not be successful unless we are linked up 
in terms of budget and mission with the Defense Department, 
with the U.S. military. And in that sense, you all received a 
letter from 120 generals and admirals saying they appreciate 
the link with the State Department and USAID. This budget 
ignores that link. It rewards one part of the triangle and it 
deprives, starves, the other two.
    But look right now where our diplomats are leading. Our 
diplomats are leading on the North Korea nuclear issue right 
now. Our diplomats are leading on the effort to convince Iran 
to comply with a nuclear deal, and I hope sanction Iran further 
over ballistic missiles. Our diplomats are leading in the 
containment of Putin in Eastern Europe and strengthening NATO. 
So that is a very important set of values and set of 
responsibilities for the State Department to undertake.
    Finally, Mr. Chairman, these proposed budget cuts are a 
slap in the face to our Foreign Service professionals. I have 
never seen morale so low, and I first started in the U.S. 
Government as an intern in the Carter administration in the 
summer of 1980. I think we have a good leader at the State 
Department in Secretary Tillerson. He has succeeded in his 
business career. I think you are right, Mr. Chairman, there 
should be a review of the State Department and AID. There 
should be a new look at some of the programs I have documented 
in my own testimony, four or five ways that I think we can have 
cost savings.
    But morale is important. And if the message from the 
President is that somehow the administrative state needs to be 
deconstructed so that we find ourselves for the first time 
since well before the second world war without a Deputy 
Secretary of State, with one Under Secretary of State, with no 
Assistant Secretary of State. We are nearly into April, no 
Secretary of State can be successful unless he or she is given 
the people, both political appointees and career officers, to 
succeed. This is an extraordinary situation, and it shows a 
lack of faith in diplomacy by this administration. So I would 
hope that the Congress would restore the balance between the 
State Department, USAID, and the military.
    I have been very encouraged, Mr. Chairman, by your 
statements, by the ranking member's statements, and other 
Members of both parties who say that we can certainly do better 
than this. Thank you very much.
    [The prepared statement of Ambassador Burns follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                              ----------                              

    Chairman Royce. Thank you, Ambassador Burns.
    One of the questions I would like to raise here, and maybe, 
Ms. Pletka, you would like to respond to it. But over the years 
I think we have learned something about the aid that we have 
transferred to other governments, and I am thinking 
specifically about Mobutu and visiting Congo and seeing at that 
time as he was on his way out, what wasn't done with that aid, 
and maybe contrasting that, or also we talked about Egypt a 
little bit.
    I know from my observations that it looks like, in North 
Africa, one of the big problems there is an issue of governance 
across North Africa. If you look at the self-immolations that 
occurred across North Africa, in the interviews to family 
members or survivors afterwards, it seemed as though what 
sparked it in every case was the fact that those doing business 
couldn't get a license any longer to even take care of their 
families. If you are in that kind of an environment and you are 
trying to start a business and you can't do so without going 
through months and months worth of, shall we say, fees to some 
22 different government agencies to start your bakery--I can 
think of one student I talked to who had finished pharmacy 
school, 22 separate fees to go into business as a pharmacist--
you don't have that opportunity really to provide for your 
family.
    And as the Peruvian economist Hernando DeSoto made the 
observation, there is something about how we got the 
fundamental property rights correct, in Western Europe and the 
United States, that provided a foundation for economic success. 
So we could transfer billions into the Congo and not change 
that environment unless we figure out a way to change the 
fundamental structure.
    I guess one of my frustrations is across North Africa, 
DeSoto did a lot of work in order to try to look at that 
informal sector in Cairo, 90 percent private, or 90 percent, 
shall we say informal--in other words, people didn't have 
property rights--and try to determine how to convert it over so 
that people could actually own their property, borrow against 
it, build, open a bakery if that is what they wanted to do. But 
instead we are in a system in much of the world where without 
the approval of the government, you cannot go forward and start 
an enterprise. You can't unleash that human capital.
    I wonder if part of the problem here is that we are not 
focused enough on getting to what actually creates economic 
growth in these societies and bringing in the expertise on the 
ground--I am not talking about in Washington--but putting that 
expertise on the ground and using that leverage so that the 
next Mobutu isn't encouraged simply to move that to a foreign 
bank account, but instead is encouraged to change the 
fundamental laws so that you have economic growth and 
opportunity for the children in each of those societies going 
forward.
    But I would like your view on that.
    Ms. Pletka. Thank you very much, sir.
    I couldn't agree more. I spent 10 years working for Senator 
Jessie Helms, who was the chairman the Senate Foreign Relations 
Committee, and he used to talk about the fact that we needed an 
America desk at the State Department, something that often 
offended our friends in the Foreign Service. But what it really 
meant was that we need a spokesman for an aggressive foreign 
policy that shows American leadership, we need to be able to 
explain to the American people how this has value for them, and 
I think that is what has been missing for so long.
    So what you are talking about here is fundamentally a lack 
of vision. It comes down to that. It comes down to programs 
that start to feel like an entitlement. For whatever reason, 
whether it is Egypt and Camp David or it is countries in 
Africa. We are not talking about humanitarian assistance here 
because there is not a lot of argument about that, although 
there are questions about efficiency. The argument is about 
institution building and how much we have succeeded at that.
    Chairman Royce. Well, to me the frustration, and maybe I 
can go to one of the other members of our panel here, but even 
when DeSoto worked out how to transfer over ownership to the 
people who live on that property in Cairo and how to register 
that for title transfer, et cetera, it was resisted. Even when 
he put together a plan on how everybody could be given a right 
to open a garage to fix automobiles on your own.
    Nobody can do it without the approval of the state and it 
takes years to get the approval of the state, and all of these 
fees or you could call it corruption or whatever you want to 
call it, all across North Africa the same problem, Middle East 
the same problem. How do we fundamentally get engaged in 
changing, Dr. Krasner, in changing that dynamic?
    Mr. Krasner. So I think your analysis is correct. I mean, 
one thing I would say is that we should recognize that the kind 
of liberal open access orders that we live in have been rare in 
human history. I mean, if you look at human history, I mean in 
only a few places in the world, North America, Western Europe, 
East Asia, have you actually had political systems where 
political leaders acted for the benefit of their own 
population. So it is not easy to do this.
    What I think we need to do is to--and this is why I think 
we need the State Department. We need people on the ground, we 
need to be able, in places that are not functioning very well, 
we need to be able to identify islands of excellence. People 
for whatever reasons, maybe it is their own personal views or 
their religious views or their political incentives, actually 
want to do the right thing. It is no accident that DeSoto 
failed in Egypt. He failed because the government wanted him to 
fail. The government wanted him to fail because they needed all 
these fees to keep themselves in power. So we have to be able 
to identify and find islands of excellence in these places and 
build on them.
    This is something that I think the MCA has done very well. 
Days to start a business is one of the indicators that the MCA 
has used. It actually works because days to start a business is 
a measure of all of these fees that you are talking about. And 
if you give people incentives, they may alter their behavior. 
Simply lecturing them won't work because it is not by accident 
that they are doing the wrong thing. They are doing the wrong 
thing because----
    Chairman Royce. And we should differentiate, this was the 
former government in Egypt, not the current one. But when the 
work is done for them and it is handed off to them and they 
still turn a blind eye to reforms in that system and then it is 
followed a year later by the self-immolations of part of the 
population in frustration, at about that point you realize we 
have to find a more effective way at leveraging and forcing 
these changes.
    I need to go to Mr. Eliot Engel of New York. My time has 
expired.
    Mr. Engel. Thank you, Mr. Chairman.
    Ambassador Burns, I would like to throw out a few things 
and ask you to comment on them.
    Obviously I am concerned, all three of you are concerned, 
about the damaging impact these cuts will have on our national 
security. So let me ask you these things. Firstly, Vladimir 
Putin just attacked American democracy and has been undermining 
our European allies for years. We need to resist the Kremlin's 
campaign to destabilize the West. How will these cuts impact 
our ability to help our allies respond to President Putin's 
dangerous influence in their countries?
    Ambassador Burns. Mr. Engel, if these cuts are instituted, 
if they are implemented, if the State Department and AID take a 
31 percent overall cut over the next couple of years, the only 
place to cut in the State Department is personnel. We don't 
have battleships. We don't have big bases that we can put into 
mothballs in the interest of budget austerity.
    And I have been through lots of budget cutting, and it 
always cuts people. We are a very small corps. The Foreign 
Service is essentially two heavy brigades. So ultimately--you 
know, Putin is going to be a priority obviously, containing 
Putin in Eastern Europe. I worry, I think that will be well-
served by any administration, but I worry that other 
necessities will not be. Colombia, for instance, which is just 
winding up a good period of a peace accord. Are we going to 
maintain the faith that we have had since the Clinton 
administration through Republicans and Democrats on aid there? 
And so you are going to have to make some very cruel choices.
    The State Department is not big. As Bob Gates said when he 
was Secretary of Defense, there are about as many members of 
the armed forces marching bands as there are American 
diplomats. That puts it in perspective. So that is one reason I 
worry about the future of our great Foreign Service. It will be 
demonstrably smaller, and then we won't have the resources we 
need to protect our interests.
    Mr. Engel. Let me ask you this, Ambassador. ISIS is getting 
weaker. Its territory has been shrinking. Secretary Tillerson 
has discussed a three-step plan to defeat ISIS: A military 
campaign, a transition phase, and a stability program. And 
Secretary Mattis has made clear that his strategy to defeat 
ISIS requires a strong partnership with the State Department. 
So what would these cuts mean for stabilizing Iraq and Syria 
after the defeat of ISIS?
    Ambassador Burns. It gets to this issue that some people, 
in justifying these budget cuts, say we are going to withdraw 
from these conflict zones. Even if there is a ceasefire 
tomorrow, and there won't be, in Syria, you would really need 
the State Department to go in. Not as much DOD. We are not 
going to put major American forces on the ground to help 
stabilize, to negotiate a ceasefire, to begin working with some 
new entity in Syria.
    The U.S. Global Leadership Coalition actually pinpoints 
this question and says that part of what the State Department 
and AID have been doing, over the long term, is to engage in 
programs that try to strike at the roots of terrorism and 
delegitimize the terrorist groups themselves, and those 
programs are at risk if this budget is put forth.
    Mr. Engel. Let me ask you this one. The danger of climate 
change for the United States is crystal clear, in my view. 
Unfortunately, President Trump's announced plans today to 
decimate President Obama's Clean Power Plan. But as we look 
around the world, we see coastal cities which could be 
enveloped by the sea in a decade or two, famine deepening in 
already drought-stricken climates, and populations on the move, 
destabilizing key countries.
    How will steep cuts to American diplomacy and foreign 
assistance make us less safe by taking away our ability to make 
regions threatened by climate change more resilient?
    Ambassador Burns. This I think is one of the most worrisome 
aspects of this budget, because climate is being targeted in 
the budget, not just the EPA, but also research, and 
particularly U.S. funding for research through the United 
Nations, which is a playing a central organizing role. And I 
certainly accept the science. I think the climate change 
agreement, the Paris Agreement, was one of President Obama's 
great achievements and one of the great achievements of 
American diplomacy over the last many decades.
    We now have commitments. If we don't meet those 
commitments, or as is rumored, if there is a debate in the 
White House that somehow we might even pull out of the Paris 
Accords, it is going to fundamentally affect not just the 
climate science and diplomacy, but it will affect American 
credibility.
    I know you all travel. You go to many parts of the world; 
climate is the number one issue. When you go to Europe it is 
the number one issue of the population, not just the 
politicians. So if the largest economy, second leading carbon 
emitter, says we are no longer going to be a part of this, 
there is going to be a dramatic reduction in American 
credibility.
    Mr. Engel. Thank you.
    And finally let me ask this question of any of the 
witnesses who might want to comment on it. Last week the New 
York Times published an op-ed entitled: ``The Real Threat to 
National Security: Deadly Disease.'' The authors provide just a 
sampling of the substantial infectious threats we currently 
face: The H7N9 bird flu spreading in China, a potential Yellow 
Fever outbreak in Brazil, and the rise of antibiotic-resistant 
infections that could become a greater threat than cancer 
within our lifetimes.
    So I ask for unanimous consent that the article be included 
in the record.
    In the midst of these threats, the administration intends 
to slash funding for the State Department, USAID, and the 
National Institute of Health, all of which defend Americans 
against diseases before they reach our shores and provide us 
with the tools needed to protect ourselves if they eventually 
do.
    The question I have for any of you is, would it be fair to 
say that the cuts included in the President's budget make us 
more vulnerable to international disease threats? Can you speak 
broadly as to what the human and economic repercussions of 
these cuts might be, particularly for the American people?
    Mr. Krasner. I did read the op-ed. I thought it was exactly 
correct. There have been 400 diseases since 1940 that have 
jumped from animals to humans. What we need to do is have an 
effective monitoring system, which, for instance, the Nigerians 
did have which enabled them to deal with the potential Ebola 
outbreak effectively. So at a minimum, we need to have budget 
support to have monitoring in places where these diseases might 
arise, which are mainly in tropical areas and in less developed 
countries.
    Mr. Engel. And this budget would take that support away?
    Mr. Krasner. It would.
    Mr. Engel. Thank you.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel. We now go to Mr. Ted 
Yoho of Florida. He is chairman of the Asia Subcommittee and 
also the chair of the Effective Foreign Assistance Caucus.
    Mr. Yoho. Thank you, Mr. Chairman, and I appreciate you all 
being here.
    I want to come back to the Ebola discussion if I have 
enough time. Today America is confronting unprecedented 
instability and growing humanitarian crises around the world, 
all of which have a direct impact on our national security and 
economic interest at home. Completely slashing the 150 account 
will not address our debt crisis.
    Understand I am one of the guys that came up here to get 
rid of foreign aid. But after 4 years, I have become learned in 
this area and realize we can't, as much as I would like to get 
rid of all foreign aid. We have to use it responsibly, and we 
rely on people like you to direct us and make sure, Ambassador 
Burns, our foreign aid is used properly.
    When you look with 95 percent of the world's consumers 
living outside of our borders, U.S. global economic leadership 
and foreign assistance generates significant returns on 
investments here at home. You know, and I can go on here. Just 
the investment in foreign aid, when it is targeted and managed 
correctly, can yield great returns and help increase trade, 
trade that is vital not only to my State of Florida where it 
supports over 2\1/2\ million jobs, but to the entire United 
States and the world economy.
    And if you look at some of the largest importers of U.S. 
goods and services, they are countries that have received U.S. 
foreign assistance. Look at South Korea. It was a donor state 
that we gave a lot of foreign aid to. Today it is our sixth 
largest trading partner. My goal, and I hope the goal of this 
committee, and I hope the goal of the President and the State 
Department, is to do a paradigm shift of getting away from aid 
and developing it from aid to trade, and that is what our goal 
is.
    And, Dr. Krasner, you were talking about MCC. I appreciate 
the work you did in helping develop that. I thank you for the 
success of that. Along on those lines is OPIC, the Global Food 
Security Act, and Electrify Africa. And, again, coming from a 
strong conservative side, to stand up for the Global Food 
Security Act and Electrify Africa wasn't real popular in my 
district. But when you explain the benefits of that, and if you 
look at this country in the early 1900s, we had very little 
electricity in the rural areas.
    Government came together to form the co-ops and invest in 
our electrification. If we do that in Africa, as Chairman Royce 
pointed out, we can keep throwing money in there, but if you 
don't bring the basic essentials of developing a society, and 
by bringing electricity and power to the people, you empower 
the people of Africa, the empowered people of Africa will 
change the dynamics in that country or any other country. And 
so for that reason, I am 100 percent behind this. And to cut it 
I think is a mistake, and as General Mattis said, to cut 
foreign aid, go ahead and do it, but you are going to need that 
money to buy more ammunition. I think that is a pretty good 
dialogue there or description of what would happen if we were 
to do that.
    So knowing the budgetary restraints that we have that are 
coming down the pike, that are going to get worse in the future 
if we don't change course in this country, there will be less 
foreign aid.
    Ambassador Burns, you were talking about cuts, the 30 
percent cuts, especially into drugs. That is one I think we 
should cut. Since 1971, under Richard Nixon, the war on drugs, 
we spent over $1 trillion, and I would ask anybody on the 
panel, have we gotten better on this? Is there less drugs or 
more drugs? They are coming in our southwest borders, our 
coastlines, any border, they are coming in.
    You know, and I look at the poppy fields in Afghanistan. 
They are still as productive as they have been. Or the 
Colombian cocoa plantations, they have more hectares planted 
today than they had before we started this war. So it comes 
down to effective foreign aid. And that is why I like the MCC 
model that you guys have developed and OPIC because it is a way 
of holding those countries accountable. And if they don't, pull 
out and invest in another country--and so let me get to my 
questions. I got them right here.
    Should we be working in fewer countries or fewer sectors? 
If so, which ones? Dr. Krasner, if you want to start with that.
    Mr. Krasner. Yeah, so let me just say I think that your 
basic premise is exactly correct. We need to find incentives. 
We need to find programs that are incentive compatible with the 
people we are giving money to. That is trade. Cell phones have 
been a big success in Africa because they could get around the 
government. It is OPIC. These are things which people in these 
countries want, not things we are telling them to do.
    So what I would say, I am not sure about the fewer 
countries or fewer areas. I think what we have to do is find 
programs which are incentive compatible with the recipients so 
that we can build islands of excellence, and out of those 
islands of excellence, you might be able to get governments in 
countries that are functioning more effectively.
    Mr. Yoho. Doc, I would like to finish out here, but I am 
done, and I am going to be respectful of the committee's time. 
Thank you all. I appreciate the work you do.
    Chairman Royce. Thank you, Ted.
    Now we go to Mr. Brad Sherman of California.
    Mr. Sherman. The chairman is right. Our foreign operations 
expenditures deserve review. There are appropriate cuts. Some 
of that review will take place in this room, but what is most 
important is that we have a State Department leadership team 
that is getting the most for the dollars we spend. 
Unfortunately, as others have said, there are virtually no 
under secretaries or assistant secretaries at the State 
Department now.
    Now, I always prefer to blame the United States Senate for 
any problem, but certainly for the failure of officers to be 
confirmed; but in this case, they haven't been appointed, and 
we are running into a situation where as we speak, on the one 
hand we get a skinny budget that says the money is being 
mismanaged or can't be spent effectively.
    And on the other hand, they don't appoint anybody to spend 
it effectively. This 28 to 31 percent cut is dangerous. It is 
shortsighted, and without objection, I would like to put into 
the record a letter signed by 121 3- and 4-star flag officers.
    Chairman Royce. Without objection.
    Mr. Sherman. Which states: ``The State Department, USAID, 
Millennium Challenge Corporation, and other development 
agencies are critical to preventing conflict and reducing the 
need to put our men and women in uniform in harm's way.'' It 
goes on to quote now Secretary James Mattis when he was 
commander of the U.S. Central Command: ``If you don't fully 
fund the State Department, then you need to buy me more 
ammunition.''
    So these cuts are a problem. They are dangerous. I am glad 
the witnesses are here to answer our questions, but the real 
question is for us. Will members of this committee stand up to 
these draconian cuts? Will we draw a line in the sand, and will 
we say we will not as individuals support the increase in 
defense appropriations bill going through until we are sure 
that the State Department and foreign operations are going to 
be adequately funded?
    Now, certain functions are protected, such as malaria, 
AIDS. That means the unprotected functions are going to be cut 
more than 28, more than 31 percent, such as public diplomacy, 
broadcasting, social media. But I want to focus on jobs for 
Americans. Export promotion, other foreign ministries do a lot 
more work on that than the State Department, but now we are 
going to cut that probably by well more than 31 percent.
    OPIC, the Overseas Private Investment Corporation, makes 
$300 million or $400 million a year for the Treasury. And that 
is not a one-time thing. That is year after year for 30 years. 
Plus, its main function is providing development abroad, and it 
provides jobs for Americans here. It makes money, yet it is 
zeroed out in this budget.
    But I want to focus on visas, because without foreign 
investment, without tourists, without international business 
deals that require face-to-face meeting, we are going to lose 
an awful lot of money. We grant 10 million visas every year for 
visitors; business, tourism, investment. They get over 15 
million applications. If they screw up on just one application, 
we may have a terrorist incident. That is why our President has 
promised extreme vetting. But extreme vetting with extremely 
few visa officers is extremely stupid. It won't happen.
    Ambassador Burns, are we going to be able to quickly 
evaluate businesspeople that want to come here and do deals and 
do an extreme vetting of those applications if we have a cut 
of, say, 31 percent in our State Department visa officers?
    Ambassador Burns. Congressman Sherman, because I think we 
are going to have to cut people if there is a 30-percent cut, 
then the answer to your question is, no, we will not have it. 
It is the State Department officers, and they are generally our 
first and second-tier officers who interview all the tourist 
visas, business visas, student visas, refugees. It is a big 
responsibility. We have very few people to do it.
    Mr. Sherman. And the President believes we are not doing it 
intensely enough. And many of us have faced the other side of 
that where you hear from a local business and they say 
somebody's going to come in. They are going to invest. The deal 
has to take place tomorrow or the next day, and they can't get 
a visa yet because they can't even get an appointment.
    So I know you see it from the operations standpoint, the 
foreign policy standpoint, but the business standpoint of 
telling businesses, oh, wait another couple of months because 
we have extremely few people, and we have to do extreme 
vetting, the effect that will have on jobs in our districts 
will be significant.
    I yield back.
    Chairman Royce. We will go to Scott Perry of Pennsylvania.
    Mr. Perry. Thanks, Mr. Chairman.
    Thanks, folks, for being here.
    We are all talking about the priorities, I think, of what 
money we have and how we are going to spend it and how it is 
going to be most effective. And as a person who has been 
privileged to wear the United States Army's uniform, and who 
has fought to stay on this committee and be on this committee, 
I think that many of us understand and agree that money spent 
on diplomacy, as opposed to on uniforms and bullets, is wisely 
spent if it can reach the intended goals. So we are talking 
about priorities here.
    I just want to tell you a story and get your reaction. I 
think there is credible evidence that during the last 
administration USAID used funds to promote foreign policies 
that seemed to me at least to serve no clear national security 
interest, and I know you are all students of history. You must 
be if you are in these positions. And I just think about John 
Service in the Roosevelt administration and how it ended up 
with Mao Tse-Tung or Chiang Kai Shek, or how it didn't end up 
for Chiang Kai Shek, and how it worked out to the United States 
relationship vis a vis a Communist China. Now, Ambassador Jess 
Bailey has come under scrutiny over the accusation that he has 
shown a political bias against the Macedonian Conservative 
Party, the VMRO, and that he has facilitated coalition 
negotiations between the main leftist party and ethnic Albanian 
parties, and I don't think that the main leftist party 
generally speaking is the same thing tantamount to Republicans 
and Democrats in the United States, but that is what people 
might think when they read that.
    Now, the Embassy has also selected George Soros' NGO, Open 
Societies Foundation, as the main implementer of USAID projects 
in Macedonia. And as of February 7, 2017--so it is just 
recently, right--about a month ago USAID announced a $2.54 
million contract with the Open Societies Foundation, which 
revealed the project included paying for training and civic 
activism, mobilization, and civic engagement.
    Now, in the case of Macedonia, not only has our American 
Ambassador meddled in their political process, not that we 
don't and not that others don't meddle in ours, but American 
taxpayer dollars have been dispersed to a known nonpartisan 
organization to promote civic activism and mobilization. While 
civic engagement is an important aspect of every healthy 
democracy, it is not, in many people's idea, the role of 
American aid to organize and promote civic activism.
    So the question is when the Department of State or USAID is 
evaluating organizations to receive grants or program money, 
what role does the organization's political motivations play in 
such evaluations and is it coordinated with the objectives of 
the national security strategy and the national military 
strategy?
    Ladies and gentlemen.
    Ambassador Burns. Congressman Perry, I would just say this, 
I don't know the particulars of this case so I do not want to 
second guess Ambassador Bailey or say anything critical of him. 
I don't know the facts. I can just make a general statement, 
since the fight against communism in the 1980s became an 
animating feature of our foreign policy, and I served in the 
Reagan administration, the Bush administration, we did, the 
State Department, Congress, fund both International Republican 
Institute and National Democratic Institute activities, and we 
funded a lot of American NGO's to go into Eastern Europe to 
promote democracy and freedom of the press.
    And so I don't see on the face of it, although I don't know 
the particulars, I have no objection to open society, I think 
it is a very fine institution, that has done a lot of good in 
Eastern Europe.
    Ms. Pletka. May I?
    Mr. Perry. Yes, you may.
    Ms. Pletka. With all respect, which is actually genuinely 
due to Nick.
    Of course that happens. I don't know the particulars of the 
case in Macedonia either. Does the State Department choose 
sides? You bet. Does AID give grants to people who they think 
are going to tilt things one way or another? Sure they do, but 
guess what? That is your job. This is the oversight committee. 
We ought to be looking at those sorts of things.
    Mr. Perry. So when we are selecting do we also include the 
objective of the NGOs or their program and how it dovetails or 
nests with the national security strategy, or the national 
military strategy, because from my person, as one who's worn 
the uniform, we are headed one direction and State always seems 
to be headed in another.
    And in this case it seems to be that is the instance and we 
are picking priorities with short resources. With limited 
resources, we have got to choose very wisely and make sure that 
we are all headed in the same direction.
    Ms. Pletka. I don't think it is fair to suggest that the 
State Department is always headed in the opposite direction 
from the United States Congress or the American people. It is 
their job to make the case, in each instance--in each 
congressional notification that they send up, that, in fact, 
what they are doing has a rationale that is in the interests of 
both the national security strategy and of the American people. 
That is their job to do that in each and every case and it is 
the job of the Congress to ask them whether they are doing it 
or not.
    Mr. Perry. Okay. Well, I am out of time, but for the 
record, I am asking.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you very much, Mr. Perry.
    We go now to Gregory Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman.
    Let me first make sure the record is clear on my behalf, 
and I don't think that it is clear on behalf of the budget that 
is proposed by the 45th President of the United States. What I 
can speak for is the 720,000 people of the Fifth Congressional 
District of New York. And I want to say to all of the women and 
men of the State Department: Thank you. Thank you for your 
service, your dedication to this great country.
    Just as I say thank you to every person that is in the 
United States military for what you do for our country, those 
women and men of the State Department are the very best. They 
make sacrifices on a daily basis on behalf of the United States 
of America. And this budget does not give them the kind of 
respect and the kind of credit that they deserve, because they 
represent our country well.
    So I can speak on behalf of the 720,000 people that I 
represent in the Fifth Congressional District, and I want all 
of them to know how much we appreciate their service to this 
great country. We would not be who we are today without your 
leadership and without your sacrifices.
    And so I think that this budget is devastating--
devastating--to the leadership of our country and to the 
service that you have rendered to it. And I wanted to make sure 
that that first was on the record.
    I am just shocked at this budget, to be quite frank with 
you. And I think that it is a bipartisan and it should be a 
bipartisan effort, because it always has been, where we have 
been bringing this together.
    This proposed budget envisions a different role for America 
in the world--that is what it really does--where one does not 
lead based upon principles or ideas but, rather, an America 
that is driven by what is our bottom line.
    And so what does that mean to those of us and to the world 
who looks to the United States for leadership? The liberal 
democratic world order is one that we built to protect our 
country and everyone else's. It is to protect democratic 
interests. And that is what the State Department does.
    When you look at the protests, the recent protests in 
Belarus and Russia, places where it is awfully--and the 
protesters are awfully brave and taking real risk of brutal 
suppression, I worry about what the new generation of freedom 
fighters will have in that regard. In an America-first world, 
these brave freedom fighters are separate from our interests, 
whereas I see a free world as one where America does, in fact, 
benefit. In fact, humankind benefits.
    So let me get off my--I have a couple of questions that I 
do want to get to. And I guess I will go to Mr. Burns, because 
I know that you stated the State Department's main resource is 
its personnel, and you have talked about that over and over 
again.
    How might we help attract and retain a committed and 
dedicated workforce now, after this hiring freeze and going 
into the future? Because I am concerned about also the future. 
What kind of message does it send to our men and women of the 
State Department?
    Ambassador Burns. Congressman Meeks, as I said in my 
testimony, I have never seen morale so low. I am not blaming 
Secretary Tillerson, by the way. I think he is doing his best; 
he just doesn't have any lieutenants around him.
    And so there needs to be a message from the White House 
that--in addition to respecting, as you say, the military, as 
all of us do--our diplomats are doing vital work for America. 
And in my written testimony--I won't go into it--I outline some 
of what diplomats do every day: Commercial work, consular work, 
political work. We are embedded, our political officers, with 
our troops in Afghanistan and Iraq. And so that is service to 
the country.
    I teach now at a school that produces students who want to 
go into the Foreign Service and the military. And a lot of our 
students are wondering, will our work be valued? And that 
concerns me greatly.
    Mr. Meeks. And, by the way--and I think Mr. Sherman touched 
on some of this. Because there are Americans that believe that 
the cuts would not directly impact their lives. But what if I 
told you the Department of State's role in advancing--and I 
think Mr. Krasner indicated--U.S. trade policy objectives by 
opening new exports and job opportunities for American 
businesses and workers through trade initiatives supported over 
315,000 U.S. jobs in 2015 in just my home State of New York?
    And what if I told you that more than 1,700 exchange 
visitors, as indicated, from overseas visited New York and 
nearly 1,000 New York residents traveled overseas as part of 
the Department's education and cultural exchange funded 
programs in 2015 and 2016?
    What would happen to American jobs and cultural and 
education exchange as a result of these drastic cuts? We will 
be hurt.
    I see I am out of time. I just want to make sure I put in 
for the record that--because I wanted to talk about Colombia--
we don't have enough time--and how important it is to continue 
that. But because of a bipartisan way--former Republican Senate 
Majority Leader Bob Dole recently made a statement in The 
Washington Post which I would ask to be submitted for the 
record.
    It says:

          Eliminating the McGovern-Dole program would have a 
        disastrous effect on the planet's most vulnerable 
        children. Without a reliable source of nutrition, these 
        children face a lifetime of stunted physical and mental 
        development and unrealized opportunity.
          This global school meals program remains one of the 
        proudest achievements of my lifetime. It embodies the 
        very best of America's values. Saving this program 
        means saving lives. It is as simple as that.

    And I ask for unanimous consent that the quote from the 
Washington Post article be submitted into the hearing record.
    Chairman Royce. Without objection.
    We go now to Mr. Dana Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    First of all, let me note that the bravery of our military 
is not and should not be used to justify specific military 
actions or justify, actually, an overall budget that is based 
on those specific military objectives. Either those objectives 
are right and they are being handled right, or they are not. 
The bravery and courage of our military is not what you are 
deciding.
    And it is the same way with the State Department. The State 
Department has people who are very--these are high-quality 
people who are working for us, and we are lucky to have them. 
But it does not justify the policies that we have toward the 
State Department by saying what good-quality people they are. 
Yes, they have our thanks, and, yes, they are wonderful people. 
And I reaffirm that that is in my heart, not just something I 
am supposed to be saying today.
    What we need to be looking at is the policies that we are 
following and what we demand as a Congress and the level of 
spending we demand as a Congress.
    I say, number one, the President of the United States wants 
to cut the money that we are spending in this foreign arena, in 
the foreign affairs, in terms of the State Department and 
foreign aid. Terrific. Somebody finally got the message from 
the American people that we are not going to put up with the 
corruption, with the financing of our enemies that we see over 
and over again when we look at our foreign aid budget.
    How much have we given to the United Nations, and how much 
of that is being wasted? How much of that is going to people 
who hate our country and undermine the peace of the world? We 
are financing the Palestinians, for Pete's sake, after all of 
these years. Does it make sense that we finance people who will 
not come to grips and will not go and actually seek a real 
peace with Israel after all of this time?
    We are spending money while those other countries are run 
by people, such wonderful people like Lumumba, who got billions 
of dollars from us, and Karzai. How about Karzai, the Karzai 
family? Oh, how wonderful it is that we are giving foreign aid 
to them while billions of dollars are being stolen.
    And, by the way, where do those billions of dollars end up? 
Well, they end up in banks, of course. And when these dictators 
and when the Karzai family finally gets arrested somewhere, who 
has the money? These big international banks. We need to reform 
that. We need to make sure that when some dictator is ripping 
his own people off, that instead of going to the American 
taxpayers--let's just pour some more money in there--that we 
take care of the banks and those dictators and cut them off 
from the flow of money.
    By the way, just my note. Karen Bass has a bill that wants 
to, you know, help the people of South Sudan. We have heard 
about that today. That is what we should be focusing on, are 
emergency situations and situations where you have a natural 
catastrophe or an emergency is putting people at risk, putting 
millions of people at risk.
    Yes, we can afford to do that. That is our moral 
obligation. It is not our moral obligation to build the economy 
of these other countries, especially when there is so much 
corruption involved that that gets drained away and taken from 
the American taxpayers.
    So I would suggest that, yeah, this administration is going 
to demand that we take a second look and a close look at what 
we are financing.
    And, yes, that is right, we should not have our State 
Department people out trying to justify and push certain sexual 
mores in a country, change their basic values to be like us. 
That is not the job of the State Department. And that is a way 
to make enemies, is to go in and tell people that your 
fundamental beliefs are wrong and we are going to push you on 
it.
    So we need to make sure, when we go in, yes--we also have, 
of course--we mentioned climate change today. Isn't that 
wonderful, that all these centuries of mankind we have these 
climate cycles; now, instead of trying to help people who are 
in an emergency, no, we are going to try to change the climate. 
We are going to try to change the climate of the world.
    By the way, there are--I know my good friends are going to 
say, well, there are so many scientists who say that we are 
causing that climate change. No, there are lots of prominent 
scientists, as well, who say just the opposite. But we have 
noted that throughout the history of mankind we have had cycles 
of drought and famine. And we need to work with our fellow 
countrymen to help those who are in need when those cycles 
appear.
    In fact, I remember that--I think it was Joseph that went 
to Egypt and told the pharaoh that, by the way, there is a 
cycle here. You are fat now, but there is going to be something 
coming where you are going to need to have your food, and you 
are going to need to make right policies now to deal with that 
cycle. And you know what? The pharaoh did that, and it saved 
the people of Egypt. Of course, I think the people of Israel 
wanted to get free from that, you know, as payment for trying 
to save the people of Egypt that way.
    But, anyway, with that said, Mr. Chairman, I hear all of 
these naysayers and criers here about having to reduce the 
foreign aid budget. Three cheers for President Trump for, at 
last, getting rid of the waste in our foreign affairs, in our 
foreign aid that often goes to crooks and enemies of the United 
States.
    Chairman Royce. We go now to Albio Sires of New Jersey.
    Mr. Sires. Thank you, Mr. Chairman and Ranking Member 
Engel. Thank you for holding this hearing in light of President 
Trump's draconian cuts to the State Department.
    I join my colleagues in sharing my deep concerns on how 
such drastic cuts will impact the government's ability to keep 
Americans abroad and right here at home safe.
    As ranking member of the Western Hemisphere Subcommittee, I 
have seen firsthand how U.S. engagement is critical in 
achieving our goals. Without U.S. presence in the region, 
countries like Russia and China are waiting to take charge in 
the countries closest to our borders. Countries like Cuba and 
Venezuela will no longer have to worry about Western 
democracies pushing back against their authoritarian 
leadership. And pulling back on our engagement in Central 
America would give the green light to human smugglers who bring 
tens of thousands more children across the northern border to 
the U.S. border.
    Concerns regarding this budget should not be partisan. 
Since Trump announced his plans to cut nearly 30 percent of the 
State Department's budget, policy experts, senior military 
officials, and faith-based groups have all spoken out about the 
dangerous ramifications.
    Over 100 Christian leaders, including the 2017 inauguration 
speakers Cardinal Timothy Dolan and Reverend Samuel Rodriguez, 
wrote to congressional leaders on March 16 and stated that ``it 
is our moral responsibility to urge you to support and protect 
the international affairs budget. We cannot turn our back on 
those in desperate need.''
    Mr. Chairman, I ask that the letter be submitted for the 
record.
    Chairman Royce. And, without objection.
    Mr. Sires. As we go through this, can you please tell me 
what would cuts to the efforts in Colombia mean in the near 
future if we, at this point, step away from helping Colombia 
continue?
    Ambassador Burns?
    Ambassador Burns. Congressman, this has been a bipartisan 
effort. It was started by President Clinton, continued by 
President George W. Bush, then President Obama. I hope 
President Trump will support the extension of our support of 
Plan Colombia.
    Now they are at the critical point where they have a peace 
agreement. It needs to be implemented fully. It is going to be 
difficult. American foreign policy most often succeeds when we 
have a long-term view, when we keep at it. I hope that the 
Trump administration will keep at this, in the tradition of its 
predecessors.
    Mr. Sires. Can you comment on that, Dr. Krasner?
    Mr. Krasner. Yeah, the only thing I would say is that we 
shouldn't expect--I mean, Plan Colombia has been a tremendous 
success. The country would have fallen to the FARC without Plan 
Colombia. But we shouldn't hope for too much. I mean, as one of 
your colleagues pointed out, there is actually more coca being 
grown in Colombia now than was the case 20 years ago.
    So all I would say is don't expect miracles. I think we 
have a pretty good administration in Colombia. Our help has 
been effective. It has provided better security in the country. 
It doesn't mean that the place is going to become nirvana, you 
know, in the next decade. So, just modest objectives.
    Mr. Sires. I am also concerned about the Northern Triangle 
countries and our engagement in trying to get the youth 
involved. I was recently in Guatemala and Honduras, and they 
were very concerned about these cuts.
    Can you talk a little bit about if we pulled away and just 
did not participate in any of the social programs that we have 
been implementing lately?
    Mr. Krasner. So I want to be modest here, because I don't 
know well enough. But it seems to me, you know, this notion 
that we could somehow export our problems by sending all of the 
gang members back to these countries doesn't seem to me like a 
very wise policy in the long run.
    So I think we need to continue to be engaged in these 
programs, again, without the expectation that they are going to 
turn into Switzerland or wherever, but where they could be more 
reasonable places, especially for younger people.
    Mr. Sires. Anybody else?
    Ambassador Burns. I think these are very important 
programs. I am not an expert on them, but I am familiar with 
them. And we have to have a commitment that is ongoing to the 
people of Central America, given the symbiotic relationship we 
have with them people-to-people across the border.
    Ms. Pletka. I have kept my mouth out of this because I 
don't know very much about Latin America.
    The case that is the right one to make is that people will 
come and try to immigrate illegally to the United States when 
the situation in their homeland is untenable. This is something 
that serves--and not in every case. And you have to make a 
persuasive case that it serves the American people to ensure 
that those in Central America are not fleeing or sending their 
children, worse yet, fleeing from their capitals, from gangs, 
from terror, to across the border.
    Mr. Sires. Thank you.
    And one last question--well, I don't have time.
    Chairman Royce. Thank you, Mr. Sires.
    We go now to Mr. Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman.
    I have been a Member of this institution for about two 
decades now, about 20 years. Prior to that, I was for 5 years a 
county commissioner, and 5 years prior to that, 4 or 5 years, I 
was a member of Cincinnati City Council. And I know how 
governments oftentimes work when it comes to having to balance 
budgets, make cutbacks, and things of that nature.
    And, typically, at the city council level, if they have to 
make cuts--and maybe they are thinking of a tax levy or 
something along those lines--they have a tendency to put out 
the things that people just can't do. You know, we are going to 
have to cut back on police, we are going to have to close the 
parks. And sometimes, you know, they literally did close the 
parks to get the public, kind of, incensed to basically support 
whatever it is they are trying to do, the argument being, at 
that level, you know, we have cut to the bone, there just isn't 
any waste.
    And I will give the President credit for drawing attention 
to the fact that, yes, we do have a $20 trillion debt hanging 
over our head, and we are going to have to cut in certain 
places, we are going to have to freeze in certain places, we 
are going to have to reduce the rate of growth in other places. 
And there aren't a lot of easy choices here.
    And at least with the public's point of view, when it comes 
to foreign aid, that is one of the things--everybody always 
says, we are spending way too much on foreign aid. And you 
would see these surveys, how much should we spend? Well, no 
more than 10 percent. Well, we are spending less than 1 
percent, and that kind of shocks the public. So I understand 
that.
    And these cuts, let's face it, when you look at it--
certainly, if I worked in the State Department, you know, a 30-
percent cut for State Department, or USAID is a very 
significant percentage cut. And the odds of that happening 
ultimately, getting through Congress, is pretty slim, knowing 
the way these things operate.
    But that being said, let me ask the panel this. We do need 
to save some money somewhere. Okay. And I understand how much 
good a lot of our State Department, our diplomats do around the 
world. I have seen them in action. I know how hard most of them 
work. But, again, that being said, if you have to cut 
somewhere, where is there waste within either USAID or within 
the State Department portion of the budget where we could 
actually make cuts, reductions, without, you know, jeopardizing 
U.S. security or our posture around the world or whatever?
    I see you champing at the bit maybe, Ambassador, so I will 
let you go first, and then I will ask the other folks.
    Ambassador Burns. I will be very brief.
    I put in my testimony: Reform has to be ongoing. Cost-
cutting has to be part of the culture. Secretary Tillerson, 
obviously an impressive manager, has a good opportunity to do 
this. And people should be open to change and reform.
    We are top-heavy. Right now, there are two Deputy Secretary 
of State positions. I think we can survive with one.
    Second, there are too many under secretaries. Push 
authority down to the line officers, the assistant secretaries. 
They are the people who run the State Department.
    In addition to that, there has been a proliferation of 
special envoy offices. I think we work better when the 
Assistant Secretary for Europe or Asia has full authority, not 
encumbered by lots of different special envoys.
    And, last--this may sound like special pleading from a 
former career Foreign Service officer--an excessive number of 
political appointees. You have to let career people aspire to 
positions of responsibility.
    That is what I put in my testimony.
    Mr. Chabot. Yeah. And I certainly agree with you on that 
last point. I think, on both sides, this has been abused for 
years by both Democrats and Republicans, where people who 
really aren't qualified are the faces of the American people 
around the world. They ought to be people who know what they 
are doing. They ought to know the language. That ought to be a 
requirement.
    Ms. Pletka?
    Ms. Pletka. I fully agree with Nick that the State 
Department needs to be in a constant process of reform. I don't 
think they are going to have two deputies in this 
administration. At least, that is what I understand.
    But look, I mean, we listed some of the big targets out 
there. We provide vast amounts of foreign assistance to 
countries for political reasons: Pakistan, Egypt, Israel, 
Jordan, others. Those programs, including Israel's economic 
support funds, need to be looked at seriously when we are in 
the process of budget-cutting. We need to actually make cost-
benefit choices with all of them.
    And in the case of places like Pakistan and Egypt, we need 
to ask ourselves whether our programs have been designed in a 
way that has been effective. And I think the answer is 
manifestly no.
    Mr. Chabot. Thank you.
    And Dr. Krasner? Briefly.
    Mr. Krasner. Yeah, so I don't think this is a question of 
waste; I think it is a question of policies. And I want to talk 
about our development assistance, not the State Department, 
which is a pretty small organization to begin with.
    You know, I do think that we need to focus on programs 
which actually serve our national security. That may mean 
security assistance. It may mean even giving money to some guys 
we don't like that much, because they provide security. It 
means health, which has actually been a big success in the 
post-war period. And it means some modest economic growth.
    But it doesn't mean a set of programs which are attempting 
to transform these countries. I think, as Congressman 
Rohrabacher said, telling them what we think our values are and 
thinking they are going to accept them isn't going to work.
    So I think focusing on security, health, modest economic 
growth is what we ought to do in our development assistance.
    Mr. Chabot. Thank you.
    My time has expired.
    Chairman Royce. Gerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman.
    I do want to begin by saying you don't make America great 
again by unilaterally withdrawing from the world. Since World 
War II, we have been and remain the essential nation. Ronald 
Reagan used to talk about being that shining city upon the 
hill. I think what he meant was a beacon, a place people could 
look to for succor, human rights advocacy, and protection. That 
is who we are. The budget in front of us reflects none of that.
    Dr. Krasner, you were quoted as saying the nature of our 
national security, as well as our ideals, requires a commitment 
to long-term development. Do you reaffirm that statement?
    Mr. Krasner. I do. And I would say there are clearly 
challenges we have in the world. Look, I think Russia--since I 
am not a diplomat, I can say this--is basically a mafia state. 
But let me say, I wore this tie today. The tie is from China. 
It is the nicest tie I have. The Chinese are really a challenge 
to our national values and ideals. And if we simply withdraw 
from the world and cede areas to them, that is not a good thing 
for United States security in the long run.
    Mr. Connolly. I couldn't agree with you more. And I assume 
you would agree that both Russia and China, for different 
reasons and in different ways, are adversaries. Sometimes we 
cooperate, but in terms of the overall relationship, it is an 
adversarial relationship. Is that correct?
    Mr. Krasner. Yes, I agree.
    Mr. Connolly. So when we withdraw, as you say, they win.
    Mr. Krasner. Vacuums will be filled, as we have seen in 
Syria.
    Mr. Connolly. Ambassador Burns, with all due respect, I 
hardly think talking about whether we have one or two deputy 
secretaries or how many under secretaries or, for that matter, 
even political appointees--I think that begs the question of a 
31-percent cut. I mean, you are not going to achieve 
efficacious savings with those changes, even if every one of 
them were adopted.
    Ambassador Burns. Well, that is right. We were asked to do 
two things here: Comment on the budget, but also look at 
reforms. I submitted my ideas on reforms. I am not as competent 
as Steve on the aid side. I defer to him.
    Mr. Connolly. Yeah.
    Ambassador Burns. But I did say, Congressman Connolly, 
that, from my perspective, a 31-percent cut is going to cripple 
the Foreign and Civil Service and USAID. It will not be 
effective.
    Mr. Connolly. And I am going to run through three sets of 
questions real quickly because of time.
    Diplomacy, it is not just a matter of bodies. Obviously, we 
are going to have to shrink our Foreign Service if this cut is 
sustained. Is that correct?
    Ambassador Burns. Yes.
    Mr. Connolly. And it isn't just, well, numbers. So we go 
from 10,000 to 7,000. It is also who those people are, is it 
not? We are going to lose skilled diplomats, and we are going 
to have trouble recruiting others to replace them if this 
budget, in fact, were to be sustained. Is that correct?
    Mr. Krasner. That is right. It takes decades to produce 
someone like Ryan Crocker, our great Ambassador, area expert in 
the Middle East. You just can't produce these skill sets.
    Mr. Connolly. Right. I think that is a really good point.
    Take North Korea. If we end up having multilateral talks 
again, not just anybody can represent the United States, or 
should, at that table. It requires somebody with lots of skill 
sets. And we may even need to have very specific skill sets. It 
helped us with the JCPOA, for example, to have Ernest Moniz in 
that room because he was an expert in the nuclear field.
    Humanitarian aid. Mr. Rohrabacher went through a list of 
failures and a correlation between corruption and foreign aid. 
But humanitarian aid can be very efficacious and can save 
lives, can it not?
    Ambassador Burns. Without question, in global public health 
and development. Think of the Haiti earthquake. Think of the 
SARS epidemic, Ebola. These things happen; we don't live in a 
conflict-free world. We have to have the men and women prepped 
to act the day it happens.
    Mr. Connolly. And, finally, the United Nations, a favorite 
whipping boy for some of my friends on the other side of the 
aisle. Let's take peacekeeping operations. Do peacekeeping 
operations serve U.S. interests? And what might happen if we 
were to defund them? What could go wrong with that?
    Ambassador Burns. Well, when U.N. peacekeepers deploy, it 
means the United States military does not have to deploy to 
really difficult places. And the U.N. Development Programme, 
the World Food Programme, the U.N. efforts to monitor Iran's 
adherence to the nuclear accords, this all comes out of the 
United Nations. We created the organization, that is in our 
interest.
    Mr. Connolly. I am wearing a Save the Children tie, not a 
Chinese tie today, Mr. Krasner, to underscore that point, by 
our investment in UNICEF and other NGOs who have saved millions 
of lives in some very simple programs that weren't there 
before.
    Ambassador Burns. And it is a great organization.
    Mr. Connolly. I yield back.
    Mr. Rohrabacher. I just thought I would hold this up for a 
moment. So the vision of me with this gavel in my hand is bound 
to create repercussions somewhere overseas.
    Mr. Connolly. Be afraid. Be very afraid.
    Chairman Royce. Mr. Kinzinger.
    Mr. Kinzinger. I can make comments, but I won't.
    Thank you all for being here.
    I want to briefly piggyback on Mr. Connolly's comments. The 
United Nations needs a ton of reform. And anybody that argues 
against that, I think it is a very difficult argument to make.
    But I see the U.N. as a force multiplier. First off, we 
have outsize presence in the United Nations. I went to Liberia 
a few years ago. That is a U.N. mission. That is a mission that 
U.S. troops are not doing right now, and you are seeing folks 
from all over the world brought in to do that. I am sure there 
is mismanagement and there is waste in that too, but we don't 
want to throw the baby out with the bathwater in this.
    I think one of the unsung things that the State Department 
does is conflict mitigation. We hear people talk all the time 
about, you know, for instance, when it comes to security, the 
security apparatus has to be right all the time, and you never 
see where the FBI, for instance,successes are in unraveling a 
potential terrorist attack. I think the same holds for the 
State Department. When conflict mitigation occurs which stops a 
war from happening that could ultimately lead to the deaths of 
either the locals or, in some cases, the U.S. military, we have 
to go in and fix it, that is something that is never talked 
about.
    One of the things I like to talk about is what I call the 
next-generational war on terror. And that doesn't mean we are 
declaring war on terror against the next generation; it means 
we are trying to prevent having to declare war on terror with 
the next generation.
    I was in Turkey recently and went, as many on this 
committee have been, to the refugee camps. Seven-, eight-year-
old kids there and Turkey is doing their best and host 
nations--Lebanon, Jordan--are doing their best to educate these 
children--but it is a very huge strain on their own society. 
And what we see are kids that are growing up without proper 
education, that are in an environment where they are the prime 
recruits for ISIS or the next al-Qaeda or the next Boko Haram 
or something we haven't even thought of yet, because they are 
in a position, without having the knowledge and education of 
what is going on, to believe that it is the West holding them 
down and the values of radical Islam are what they need to 
subscribe to.
    I think it is completely shortsighted when we talk about 
just simply cutting the State Department but boosting the 
military. I will tell you, as a military person myself, I 
believe in boosting the military. In fact, I would go $50 
billion even beyond what the President has suggested. I think 
we need a $100 billion increase just to get us back where we 
should be.
    But I also think cutting the State Department makes our 
need to use that military far more likely. This is not a world 
anymore where we can put up walls. I mean, by the way, why 
would you need a military as big as we are talking about 
creating if we were just going to use it to defend ourselves? 
If everything outside of our shores didn't even matter, as what 
we are saying with this State Department cut, why would we even 
need a big--we could have a military that is $100 billion that 
could defend us against Canada and Mexico pretty easily.
    So my question--and I will start with you, Dr. Pletka. When 
I talk about that next-generational war on terror, when I talk 
about the fact that we can defeat ISIS but our concern needs to 
be with the 7- and 8-year-olds in the region right now, can you 
talk to me--and maybe all three of you if we have time--about 
what impact a 40-percent cut to the State Department would have 
on our ability to prevent the next war on terror?
    Ms. Pletka. At the outset, in our statements, I think all 
of us came out pretty strongly against the wisdom of a 28- to 
31-percent cut at the State Department, even understanding that 
it was going to be plussed up with OCO funding, which it is, 
very substantially, in fact, beyond the scope of the cut.
    Look, this is something that none of us are going to 
disagree on. We have to invest in the future of the Middle 
East. We have to ensure that people have places to go back to. 
You can have an argument until the cows come home about how 
many refugees we are going to take into the country. We are not 
going to take 4\1/2\ million Syrian refugees. Even I, who 
advocate taking a lot more than we are now, am not going to 
take them. They have to have somewhere to go back to. And that 
place, unfortunately for them right now, is Syria.
    That means that we need to invest in the future of these 
countries. That is why, when I hear people say that our values 
aren't things we need to talk about and that nation-building 
isn't something the United States is about, it doesn't make 
sense to me, even as a realist, because they need to go 
somewhere. If they don't go somewhere, they turn into exactly 
what you suggested. They are Al Shabaab; they are Boko Haram.
    I will say, since you allowed me the microphone, though, 
that not every U.N. operation is actually the most important or 
necessary operation. Nor is it strictly necessary that we pay 
28 percent of peacekeeping, when, in fact, the statute suggests 
we should pay 25 percent.
    There are places to get savings. Is that going to pay for 
everything that we want to do? No. Are these cuts too much? 
Yes. But they should be a reason to look at rational and 
reasonable reforms that prioritize the way that you just did.
    Mr. Kinzinger. I don't disagree with you.
    And, unfortunately, the others, I will have to cut you 
short.
    But I just want to say, you know, look, when you have \1/2\ 
million dead Syrians, almost 50,000 of which are children, and 
we sit back and say that doesn't matter to us or the answer is 
to empower a strongman or Russian regime, and then we wonder 
why an entire world, in essence, is turning against us, because 
maybe they don't like to be oppressed, even though maybe we 
think they do somehow, which obviously they don't, I think what 
you see as a result is easily to understand what is happening.
    With that, Mr. Chairman, I yield back. Thank you.
    Chairman Royce. And next is Ms. Karen Bass.
    Ms. Bass. Thank you, Mr. Chair.
    I wanted to ask several questions related to the 
President's proposed budget and the cuts and your views on how 
we might respond.
    So, for example, if the cuts were to go through and we had 
the Ebola crisis, how would we be able to respond to that? One 
thing Ebola taught us is that the crisis might have been in 
Africa but it could quickly come to our shores. So if a 30-
plus-percent cut did go into effect, how would we be able to 
respond?
    Ambassador Burns? Any of you.
    Ambassador Burns. One of the reasons we were successful in 
Ebola was the U.S. military and its work with the State 
Department on the ground in the four countries. In fact, I 
include Nigeria because there was a near outbreak there.
    And this nexus is so important. Every President, when they 
do their budgets, has always tried to integrate defense and the 
State Department and USAID. This budget doesn't do it, which I 
think is one of its main weaknesses.
    Ms. Bass. And so I wonder, how is the State Department 
functioning now? So, for example, you mentioned that there are 
not assistant secretaries. I worked very closely with the 
Assistant Secretary for Africa. I know there is not one in 
place now. I don't understand why the sitting Assistant 
Secretary wasn't left in place until a new Secretary could be 
appointed. I don't even know who to call.
    Ambassador Burns. Well, Ambassador Linda Thomas-Greenfield 
is one of our great Foreign Service officers.
    Ms. Bass. Yes. I agree.
    Ambassador Burns. I have enormous respect for her.
    What happened over the last 2 months is that several of our 
most senior and experienced career diplomats were asked to 
resign. They weren't asked to leave their current jobs and then 
perhaps be available to serve elsewhere. Asked to resign. It is 
an enormous loss. You know the names. We all know the names. 
And that is a great mistake.
    And to be near April and not to have a leadership on the 
seventh or sixth floor of the State Department, it doesn't make 
sense for the interests of the Trump administration.
    Ms. Bass. Right.
    Ambassador Burns. We want the President to succeed. But he 
can't succeed--cannot--if he doesn't have a State Department 
leadership in place.
    Ms. Bass. And it is my understanding, too, that some of 
them just went ahead and resigned before they were asked 
because they saw the writing on the wall, including her.
    So, currently, we are dealing with famine, and I have 
introduced a bill to respond to the famine that is happening in 
South Sudan, although it is in other African countries too. How 
would we respond?
    Ambassador Burns. Well, you know, as the chairman said, 
there are four countries at risk of famine: Yemen and South 
Sudan and Nigeria and Somalia. This is unprecedented.
    And what you need in an emergency situation--we saw this in 
the tsunami of 2004, the Haiti earthquake--you need to have 
trained people who are on the job, who can go into action in 24 
hours. That is why the Ebola crisis was contained. That is why, 
way back in 2004, it was the U.S. and Japan, India, and 
Australia that led the rescue effort to the people who were 
victims of the tsunami. You can't just create that on the fly.
    And, again, I know I have said this a lot, but I do want to 
repeat it: The State Department is very different than Homeland 
Security and the Defense Department. We basically have people. 
And it takes decades to train a Linda Thomas-Greenfield. You 
just can't produce somebody and hire someone off the street to 
do that job.
    Ms. Bass. You know, my focus on Africa has been promoting 
trade. And I know that OPIC is due to be cut. And, I mean, that 
helps us promote U.S. business involvement, so I don't quite 
understand the rationale for that.
    I am also concerned about the elimination of the African 
Development Foundation that specifically builds the capacity of 
Africans to do for themselves, which, to me, is exactly how our 
foreign aid should be.
    And I just wondered if either of you had a comment on that, 
Dr. Krasner or Ms. Pletka.
    Ms. Pletka. We didn't speak specifically about it, but I 
think in everybody's testimony we alluded to the fact that 
there is a lot of support for OPIC. I do think that it is 
vital, again, to make the case about how OPIC works. What works 
in development? What works in development is not development 
dollars from the American taxpayer. It is private business----
    Ms. Bass. Exactly. Excuse me. Before my time runs out, have 
any of you talked to Secretary Tillerson? I mean, because he 
doesn't speak to the press. So what is he saying? How is he 
doing his job, or not?
    Ambassador Burns. I have not talked to him since he took 
office, no.
    Ms. Bass. Have either of you spoken to him? Do you know 
anybody that has?
    Then how do they say he is doing his job? Because I also 
don't understand why he is silent and won't speak to the press. 
So do you know anybody that has talked to him, and what have 
they said about how he is doing his job? Isn't he concerned 
that he doesn't have any staff?
    Ms. Pletka, you look like you know.
    Ms. Pletka. I am not the next Sean Spicer. I am not going 
to speak for anybody in this administration. And I don't know 
the Secretary or what he thinks, and I would never presume to 
speak for him. We have many of the same questions.
    Ms. Bass. I wasn't asking you to speak for him. I was just 
saying if anybody has a clue. This is a mystery.
    Ms. Pletka. I don't know. I don't know.
    Ms. Bass. Dr. Krasner, do you mind?
    Mr. Krasner. This is an advantage and disadvantage of 
living in California. It is a long way from Washington.
    Chairman Royce. Thank you very much.
    And let me remind our colleagues that one of our witnesses, 
Dr. Krasner, has to leave at noon.
    And you have 5 minutes; it is yours. But if you could use a 
little less time, it would be easier for the rest of your 
colleagues to get a chance to ask the whole panel their 
questions.
    And now I go to Mr. Donovan.
    Mr. Donovan. Thank you, Mr. Chairman.
    And in respect for my colleagues, I am going to just ask 
one question of all of you.
    Waste, lack of metrics and results, bureaucracy, lack of 
transparency, duplication--these are all major concerns about 
foreign assistance which these proposed cuts claim to address, 
in part through the elimination of some of the agencies.
    It is some of our leanest, most efficient agencies, such as 
the Millennium Challenge Corporation, the Inter-American 
Foundation. My friend Karen Bass talked about the U.S. African 
Development Foundation. They systematically evaluate. They have 
clear results. They have access to long-term impact, leverage 
outside resources, and reach a level of needs where others 
cannot--are on the chopping block for elimination, to be either 
cut totally or subsumed by a larger agency like USAID.
    When we look to prioritize our cuts, shouldn't we first 
protect the agencies or the efforts that are working? And why 
would we sacrifice or fold in some of the most cost-efficient 
models, like those that I just mentioned, that encourage 
competition and local ownership, while keeping intact some of 
the agencies that have exhibited some of the gravest examples 
of waste, intractable inefficiencies, and weak results?
    I would just like your comments on how we are choosing 
these agencies or these organizations that will either be 
eliminated in total or consumed by some larger agencies like 
USAID.
    Mr. Krasner. I agree entirely with what you have said. I 
think the MCA was really a----
    Chairman Royce. Is your microphone on?
    Mr. Krasner. Yeah, it is on. Okay.
    I mean, it was really a leader in developing metrics and 
measurement. But I think that challenge has actually been taken 
up by other aspects of the assistance community, including 
USAID, as I said. I have been on the board of directors of the 
United States Institute of Peace, and I know there that they 
have systematically introduced measures that are designed to 
assess programs.
    So I think, looking at cutbacks, it would make much more 
sense to look at agencies which are evaluating their programs 
rather than what looks to me like a blanket cut.
    Mr. Donovan. Thank you.
    Anyone else?
    Ms. Pletka. You know, the right question to ask is not how 
much you want to cut, it is what you want to achieve.
    Ambassador Burns. And I would just add--I agree with you as 
well. I would just add the Trump budget cuts don't appear to be 
embedded in a strategy. And I would agree with you, we have to 
be demanding about transparency, about metrics. And there are a 
lot of these institutions that you mentioned that are going to 
be cut, perhaps, that meet those criteria. So I just don't see 
the strategy here.
    Mr. Donovan. Thank you, Ambassador.
    I yield the remainder of my time, Mr. Chairman. Thank you.
    Chairman Royce. Well, thank you. And I would hope that our 
colleagues might use you as an example.
    Next, Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you to the witnesses.
    The proposed cuts that President Trump has submitted to 
Congress are disproportionate, shortsighted, and would be 
devastating for U.S. national security interests around the 
world. As already mentioned here today, a wide range of 
diplomats, security experts, Members of Congress, and other 
experts have condemned these cuts and described the devastating 
consequences they would have to our national security 
interests.
    I would like to submit for the record and ask unanimous 
consent that an op-ed written by former Senate Majority Leader 
Bill Frist that explains that these proposed cuts would have 
severe moral, national security, and economic impacts that 
would negatively affect U.S. interests and U.S. leadership in 
the world be made part of the record.
    Chairman Royce. Without objection, so ordered.
    And let me remind my colleagues that you can also put 
questions into the record for our witnesses, and they will 
answer and give you a response at the same time.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Frankly, it is sort of shocking to me that it is the 
responsibility of the Foreign Affairs Committee to educate the 
President of the United States on the value of investing in 
diplomacy. It would seem like everyone would understand the 
consequences of this kind of massive disinvestment, but 
apparently not.
    So I would like to ask you, Ambassador Burns: If the United 
States were to reduce our assistance efforts around the world 
in the kind of magnitude that the President has suggested, are 
there other governments that would seek to fill that space? And 
what might increased assistance from foreign governments with 
differing strategic aims than the United States have on our 
long-term national security interests?
    Ambassador Burns. Congressman Cicilline, I would just echo 
what Steve Krasner said a little while ago. Every vacuum is 
filled.
    Certainly, the Russian Government, adversary of the United 
States, wants to take the place of the United States in Eastern 
Europe. The Chinese Government pushing out in the South China 
Sea. As the Trump administration said no to the Trans-Pacific 
Partnership, which I thought was a great strategic mistake, 
China will now set the trade agenda.
    So, over and over again, we have been the liberal world 
order leader since Harry Truman's administration. Both parties 
have invested in that. And I think these budget cuts, they 
worry a lot of people that they could be indicative of a larger 
retreat by the United States from its global responsibilities.
    Mr. Cicilline. Thank you, Ambassador.
    I would like to now turn to the United Nations.
    As you know, the Security Council has adopted sanctions 
targeting terrorist groups like ISIS and al-Qaeda and rogue 
regimes like North Korea in recent years. These include legally 
binding arms embargoes, travel bans, asset freezes, and other 
measures designed to increase pressure on these groups, 
undercut their ability to carry out nefarious activities, and 
hold countries, businesses, and individuals that do business 
with them to account.
    U.S. dues payments to the U.N. regular budget help finance 
efforts to monitor international compliance with these measures 
so that we can assure they are being implemented effectively 
and adjust accordingly. For example, in late November, the 
Security Council adopted new sanctions against North Korea 
which are expected to lead to a decline in North Korean coal 
exports, a major source of revenue for the regime, by as much 
as 60 percent.
    Do you think it is important for the United States to 
continue to engage with the U.N. on these types of efforts? And 
how would cutting U.S. funding to the U.N. negatively impact 
our ability to push for full implementation of these sanction 
measures and to be sure that they are, in fact, followed 
through with consistency?
    Ambassador Burns. I think we have to stay with the U.N. It 
is a deeply flawed institution. It needs major managerial 
change. Every administration has to fight that battle. But as 
you were asking your question, I thought: On food aid and 
famine, on global public health, on nuclear proliferation, and 
on peacekeeping, we turn to the U.N. because that saves 
American effort and American dollars and American 
participation.
    It is the institution that we created, so we have to stand 
by it, but we do have to be concerned about U.N. reform. And 
there are aspects of the U.N.--I think Danielle mentioned one 
of them--that are objectionable to us, and I think Ambassador 
Haley has been a very vigorous, positive defender of American 
interests there.
    Mr. Cicilline. Thank you, Ambassador.
    And I will yield back the remaining 47 seconds, in the 
spirit of making sure Mr. Deutch has enough time.
    Mr. Donovan [presiding]. The gentleman yields.
    The Chair recognizes the gentleman from Florida, Mr. 
Deutch.
    Mr. Deutch. Thank you. Thanks to the chairman and ranking 
member for holding this important hearing.
    Every priority of this committee, every priority of our 
committee is threatened under the President's proposed budget. 
But I am encouraged by what I have heard today from members on 
both side who remain committed to defending a robust foreign 
policy and all pillars of that foreign policy.
    In that vein, Mr. Chairman, I would like to request 
permission to enter into the record a statement from Madeleine 
Albright and Stephen Hadley on America's role in the world, 
which serves as a good bipartisan reminder of what is at stake 
in this discussion.
    Mr. Donovan. Without objection.
    Mr. Deutch. Thank you, Mr. Chairman.
    Simply put, Mr. Chairman, the President's budget is an 
attack on the security of this country. And there should never 
be a debate between diplomacy and military strength, a debate 
between hard power and soft power. Everyone in this room knows 
that those priorities are all essential parts of a unified 
whole. Our development work makes the world more prosperous. 
Our humanitarian efforts create stability and goodwill. And our 
diplomats ensure that, when the United States acts, it need 
never do so alone.
    All of this reduces the ranks of our enemies while creating 
a safer world for our allies and for our citizens. When the 
United States is engaged abroad, it is less likely that we will 
need to fight costly wars overseas, and it is harder for 
terrorist organizations to recruit individuals to attack us at 
home.
    All of this was true when President Reagan argued that 
international assistance would, and I quote, ``enable the 
United States to continue its contribution to the achievement 
of a secure and stable international environment.'' It was also 
true when President George W. Bush said, and, again, I quote, 
``that no national security strategy is complete in the long 
run without promoting global health, political freedom, and 
economic progress.'' And it is true today.
    Despite decades of bipartisan support for diplomacy and 
development, President Trump has decided to slash this funding 
with a staggering one-third cut. If these cuts are not 
motivated by partisan politics, then we are left to wonder what 
is motivating them.
    It cannot be the pursuit of national security, because that 
has been ignored, and the appeals of his own Secretary of 
Defense, the Joint Chiefs, 121 retired generals and admirals 
that we have spoken of already today, who have argued that 
diplomacy and development are essential complements to a strong 
military.
    It can't be a desire to make government more efficient, 
because the President is trying to eliminate the Overseas 
Private Investment Corporation and the U.S. Trade and 
Development Agency and a host of other initiatives that 
generate massive returns for taxpayers while advancing our 
interests abroad.
    And it cannot even be an attempt to tackle our deficit, 
because the President is proposing to spend every dollar that 
he cuts from the international affairs budget on other 
government programs.
    If partisanship and national security and fiscal concerns 
aren't motivating the President to slash the foreign affairs 
budget, the only thing that can remain is ideology. And the 
President is a newcomer to foreign policy, but his closest 
advisers have pushed for years to see the United States retreat 
from the world, even as they have celebrated the rising 
influence of countries like Russia.
    Put simply, the President's budget undercuts U.S. prestige 
and influence abroad. And I look forward to joining with my 
colleagues to defend America's leadership role in the world now 
and every time that the President and his team challenge it. 
Unfortunately, Mr. Chairman, I have a feeling that we will have 
plenty of opportunities to do just that.
    Ambassador Burns, if you could just speak to the long-term 
effects of how the President's positions in this budget are 
likely to affect our national security, long-term effects on 
the readiness at State, at AID, and other foreign policy 
agencies if these cuts go through. My concern is that it is not 
just a question of this year's budget, but that it would take 
years to undo the damage.
    Ambassador Burns. I agree with your statement, Congressman 
Deutch. The State Department, the men and women are trained 
over the course of a lifetime, and so you have to continually 
invest in them. It is good value.
    I worry about the trade policies of this administration 
that are giving an undue advantage to China in the Far East. 
And I certainly worry about the inattention to the Russia 
problem, both Russia's interference in our election but also 
Russian aggression in Eastern Europe. And Angela Merkel has 
stood up to Putin; I don't see President Trump doing that.
    So I think it is a problem with ideology. And I would just 
add something that was mentioned before. If some in the White 
House want to dismantle the Federal Government, the executive 
branch, and hollow it out, it is going to make their foreign 
policy, our foreign policy, ineffective. That is the only 
explanation, now that we are March 28, that I can figure out 
for why we have no appointees in the State Department. This has 
never happened before.
    Mr. Deutch. I appreciate it. Thank you very much, 
Ambassador.
    Thank you, Mr. Chairman.
    Mr. Donovan. The Chair now recognizes the chairman of the 
House Committee on Homeland Security, the gentleman from Texas, 
Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    I want to thank the witnesses.
    You know, General Mattis--and you may have heard this prior 
to me saying this many times, but--before the NSC meeting, 
stated that ``if you don't fully fund State Department, then I 
need to buy more bullets.'' And, you know, I have seen the 
combination of hard power and soft power play its role, and I 
think he is absolutely right about this.
    I have been a student of terror for many years, dating back 
to being a Federal prosecutor doing counterterrorism. And it 
always seems to breed and this ideology seems to spread in 
areas that are underdeveloped, where there are poverty 
situations, where we have governments in chaos, or where there 
is no government, where we have basically failed states that 
become safe havens, and then the terrorists go there, breed, 
out of which external operations can be conducted. I think that 
is the biggest threat that we face as I look at the homeland.
    So these cuts concern me because of the impact it will have 
on our diplomats' ability on our soft power to change that part 
of the world. And, quite frankly, the counternarrative is so 
important here. We can kill 50,000 ISIS fighters, as we have, 
in the caliphate, but we need to kill the ideology. And that 
is, I think, within the purview of the State Department to do 
that.
    So my question is very simple. How will these cuts, in your 
view--both of you--how will they impact our efforts in this 
conflict that we have against Islamist-based terror?
    Ms. Pletka. I don't think the cuts are going to be helpful. 
I think we established at the outset that soft power is a key 
element to any strategy to defeat ISIS and to defeat Islamist 
extremism.
    I also think we need to look back over the last 15 years 
and recognize that the strategies that the State Department has 
employed to defeat Islamist extremism have not been a huge 
success.
    And that is why, while we have all stood up, jumped up and 
down and said that 30 percent is not an appropriate cut to the 
Department of State given the vitality of its role in fighting 
terrorism, nonetheless it is an opportunity to sit down and go 
back and see what is effective, what should be done, what works 
and what doesn't, and get rid of what doesn't in favor of what 
might work in the future, with an honest look at all of our 
programs.
    Mr. McCaul. Yeah. I think that is a great point. We need to 
reform the State Department's efforts in this area. And you are 
right, it has not worked very well. We haven't had a 
countermessage that has worked effectively against the 
jihadists. I think you are absolutely right on point.
    Ambassador?
    Ambassador Burns. Mr. Chairman, when I worked for Secretary 
Powell, former military man, he felt very strongly--this was in 
the wake of 9/11--that we had to have a counterterror policy 
that was focused exactly as you said. There is a military 
component; there is an intelligence; judiciary; but there is a 
diplomatic.
    And I think the answer to your question, I would suggest, 
would be there are programs to combat the ideology and defeat 
it, and that takes a long time. That is State's responsibility, 
in conjunction with the military.
    And, second, State is a coalition-builder for the military. 
So you saw Secretary Tillerson convene 58 countries last week 
at the State Department against the Islamic State. So we are in 
this with the military. And the budget that has been presented 
by the Trump administration cuts the State Department out. I 
favor an increase in military spending, but you have to have a 
balance here, and that is what is lacking.
    Mr. McCaul. Well, I think diplomatic power, and 
particularly the Sunni-Shia world, we have--Syria, basically, 
as you know, is the civil war that created this mess that has 
led to the creation of ISIS, the hundreds of thousands of 
refugees, millions. And without the ability to resolve that 
political conflict, again, we can fire as many bullets as we 
want in that area, but we are not going to get to a resolution 
of the underlying problem.
    And would you both agree with that?
    Ms. Pletka. I don't think either of us are going to 
disagree with you. That is the key. But I think that it is 
vital that we understand how it is that we are going to combat 
this ideology effectively. Because, as you said, so far, we 
have not had great success.
    We started 10 years ago with ISIS and al-Qaeda, ISIS not 
existing and al-Qaeda in fewer than a dozen countries. We now 
have both in more than two dozen countries, expanding as we 
speak. And so we absolutely need to focus on how it is that we 
are going to effectively combat them.
    Mr. McCaul. In closing, Mr. Chairman, if I could just add, 
because my time has expired, for both of you, I would love to 
get your suggestions on how we can counter this narrative and 
this ideology effectively. Because we haven't done it, and now 
it is a global internet phenomenon that is not just to the 
caliphate; it is a global extremism issue.
    I yield back.
    Chairman Royce [presiding]. Thank you.
    Dr. Ami Bera of California.
    Mr. Bera. Thank you, Mr. Chairman.
    I think we all agree this is a dangerous budget. You know, 
I believe America is a great Nation, but this is not the budget 
of a great Nation. You know, great nations don't withdraw from 
the world. And if we just look at our history post-World War II 
and the second half of the 20th century, you know, the three 
pillars that you talked about--defense, diplomacy, and 
development--you know, created a better world.
    And, Ms. Pletka, in your opening comments, you said a world 
led by the United States is a better world. I absolutely agree 
with that. And I think most of the world would agree with that. 
But the problem with this budget is it is not a budget that 
shows American leadership. And the problem is, if we withdraw 
from the world, other nations are going to fill that void, and 
they won't necessarily share the values that we share.
    Again, this is a dangerous budget. You know, on both sides 
of the aisle, we understand the vacuum that this would create. 
You know, listening to our defense experts, you know, our 
Secretary of Defense, our retired generals, they think this 
would be a mistake. And, again, that is the danger of this 
budget.
    It disturbs me that--you know, this is my fifth year in 
Congress, and it is my fifth year on the Foreign Affairs 
Committee. When we discuss the State Department budget, we have 
the Secretary of State doing the courtesy of sitting there and 
defending that budget. The fact that we don't have any State 
Department employee, let alone the Secretary of State, willing 
to defend this budget--I hope he does come before this 
committee so we can ask him questions directly--I think we, as 
Members of Congress, ought to be offended by that.
    Look, we want to work with the administration. We want to 
maintain the strength of the United States. We are a great 
Nation, but we need a budget that reflects who we are, not just 
soft power, but the moral power of who we are as the United 
States. And that is not this budget, and that is the danger 
here.
    You know, yes, every department across this government 
could use evaluation, and they should on an ongoing basis 
evaluate each program, look for efficiencies, look for ways to 
return money to the taxpayer, or outdated programs should be 
phased out. Nobody is going to argue with that. That should be 
an ongoing responsibility of Congress but also the heads of 
those departments.
    But, again, you know, doing things in a haphazard way--as 
Secretary Mattis said, if we don't fund the State Department, 
then you are going to have to fund the military. And that is 
exactly what this budget does, and I think that is a dangerous 
mistake.
    Ambassador Burns, you looked at this--and I will continue 
with Mr. McCaul's line of questioning. We have had multiple 
hearings on ISIS and how best to combat it. Yes, we have to 
fight them over there, but there clearly is a role of the State 
Department in countering some of the propaganda, in using our 
broadcasting powers, working to use the internet and social 
media in different ways, and, you know, working hand-in-hand 
with our diplomacy. And I believe this budget makes us more 
susceptible to threats in the homeland, makes us more 
susceptible to not defeating ISIS.
    And I would be curious about your thoughts there.
    Ambassador Burns. I would just say, I agree with Danielle 
Pletka when she said that the terrorism problem is worse than 
it was 10 or 15 years ago. And so, as we look ahead--and we 
have to plan budgets with policy--we are facing another 
generation of a struggle against Islamic terrorist groups, 
Muslim terrorist groups, in the Middle East and in Africa.
    And you also inferred this; we are competing with China for 
influence in East Asia. We are competing with Russia in Eastern 
Europe. We are the great power, and we don't want China and 
Russia to be in the ascendency. And we want to be effective and 
successful in the war against these groups. You need to be 
active and in fifth gear. And that means fully funding State 
and AID, as well as the military.
    Mr. Bera. And I believe the rest of the world would prefer 
a world led by American values, as opposed to the other 
ideologies.
    You know, Ambassador Burns, you were a career diplomat. I 
don't know if you were at the State post, the Afghanistan 
conflict, initially, you know, when we defeated the Russians, 
but what did we do? Did we stay there? Did we help rebuild 
Afghanistan? And what filled that vacuum?
    Ambassador Burns. Well, way back, we actually left 
Afghanistan.
    Mr. Bera. And what happened in the aftermath?
    Ambassador Burns. Well, then al-Qaeda took root, and the 
Taliban made a partnership with al-Qaeda. So that was the big 
strategic mistake of the 1980s and 1990s leading up to 9/11: We 
left.
    Mr. Bera. Well, let's make sure we don't make that same 
mistake.
    Chairman Royce. Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair.
    Thank you to the witnesses for very good testimony today. I 
would have liked to have Mr. Tillerson join you.
    Maybe another time, Mr. Chairman.
    I think that if the Secretary of Defense, General Mattis, 
was here, he probably would have agreed with a lot of the 
testimony today--the need for diplomacy, development, and 
defense. We are living in a world with a lot more danger and 
terror, and decimating the State Department is, I will say it 
respectfully, not smart--dumb, not smart. We should evaluate, I 
agree with that; refine, possibly; but trash, no.
    But I have another concern. We have heard today criticism 
about vacancies. As a Member of Congress who happens to 
represent Palm Beach County, it has become obvious to me and 
maybe to many of you that the White House is running the State 
Department out of Mar-a-Lago.
    The President, in my opinion, sees himself as schmoozer-in-
chief. He thinks playing golf at the Trump golf course or 
dining the Prime Minister of Japan at the club at Mar-a-Lago is 
a substitute for, let's say, helping Japan after their 
earthquake.
    And what really bothers me is that the President actually 
profits from each visit to Mar-a-Lago. It is a private club. 
Since he has become President, the cost of joining this club 
has gone from $150,000 to $300,000. People are paying money to 
dine in the ambience of world leaders.
    And I think it was said here today a number of times that 
corruption, corruption at the very top, around the world, in 
governments, has been the underpinning of a lot of these 
governments.
    And I ask the question, how does our President have the 
moral authority when he is profiting off of every foreign 
visit--and he has the Chinese delegation coming next week. The 
Chinese delegation is coming to Mar-a-Lago next week. How does 
he have the moral authority to sit across the table from a 
world leader and say, ``You've got to keep it clean. You've got 
to count the votes?''
    So I have a question, and here is my question to you. Could 
you just give me some examples of what you think, how 
corruption has led to instability in this world? From your 
experience, maybe give some examples.
    Ambassador Burns. I think we have all said today that 
corruption is endemic in parts of the world. We have seen it in 
Afghanistan. We have seen it in Pakistan. We see it in China. 
We see it in Russia, in abundance in Russia. And so our 
country, however flawed we are--and we are not perfect--we have 
to be immune from charges of corruption, certainly, in our 
leadership.
    You also made an earlier point--I just wanted to say 
quickly, we want the President to be fundamentally involved in 
foreign policy. If the White House is strongly involved, it is 
not necessarily a bad thing.
    But the most effective administration, most people would 
say, in the last 40 years, was George H. W. Bush. He delegated 
to his Secretary of State, James A. Baker III. They were a 
team. You want delegation to your major Cabinet agencies. Right 
now, it looks like the State Department is not plugged in to 
the White House. I would hope that that could be fixed and that 
Secretary Tillerson could be given broad authority.
    Ms. Frankel. Thank you.
    Mr. Chair, I yield back.
    Chairman Royce. We go now to Norma Torres of California.
    Mrs. Torres. Thank you, Mr. Chairman. And thank you for 
holding this hearing.
    Before I begin with my questions, I would like for 
unanimous consent to be included in the record a letter from 
the American Academy of Diplomacy and the Council of American 
Ambassadors, stating, ``We believe the proposed magnitude of 
the cuts to the State Department budget poses serious risks to 
American security.''
    Chairman Royce. Without objection.
    Mrs. Torres. Thank you, Mr. Chairman.
    And I think that we pretty much all agree that diplomacy 
and development are essential to advancing our national 
interests and protecting our national security.
    As the co-chair of the Central America Caucus, I have been 
particularly involved in the Northern Triangle of Central 
America. Many Members of Congress, both sides of the aisle, 
have recognized that we have a strong national interest in 
security, development, and the rule of law in the Northern 
Triangle. There has been bipartisan commitment to provide 
assistance to the region in support of the Alliance for 
Prosperity in the Northern Triangle.
    Over the past 2 years, these countries have begun to see 
real progress in key areas. The United States has been a 
catalyst for change and has stood behind the efforts of 
Hondurans, Guatemalans, and Salvadorians who are working to 
improve conditions for their constituents. Especially the 
attorney generals of all three countries have had excellent 
international partners as well, especially the International 
Commission Against Impunity in Guatemala and now the Mission to 
Support the Fight Against Corruption and Impunity in Honduras.
    Ambassador Burns, what kind of negative effects could we 
see if assistance to this region was sharply reduced?
    Ambassador Burns. Oh, I think it would be a great mistake. 
We have an integrated life with the countries of Central 
America and Mexico, as well as Canada. And these programs in 
the Northern Triangle, especially the fight against corruption 
and the activities of our American Ambassadors in trying to 
work with the Governments of Guatemala and Honduras and other 
places, they are critical to us and critical to our security.
    I think a larger point here, too, is we cannot afford to 
have a troubled relationship with Mexico, and we have to 
straighten that out as well. But a key part of American power 
in the world is stability in Central America and North America.
    Mrs. Torres. I have been specifically impressed with the 
work of all three Ambassadors and the work that they have done 
to empower the people, you know, to work to ensure that future 
generations have an opportunity to see a future for themselves 
in their own home country and not have to travel 1,000 miles to 
get to our southern border to ask for refuge because their 
country is just too dangerous to see them grow into successful 
adults.
    Ambassador Burns, you also mentioned that possible 30-
percent cut to our counternarcotic efforts abroad. How could 
drastically reducing the budget for international narcotics 
control and law enforcement impact our efforts to combat 
corruption and strengthen rule of law?
    Specifically, I want to hear, also, how would it impact 
regional security, whether in the Caribbean or in Central 
America or at the border.
    Ambassador Burns. Congresswoman, one of my responsibilities 
when I was Under Secretary of State for Condoleeza Rice was to 
oversee the bureau, INL, that conducts our counternarcotics 
programs.
    I would be the first to say that the United States has not 
always been successful in these programs--a lot of problems 
over many decades. But it doesn't make sense to me to say, 
since we have had problems, we should quit. We can't. We can't 
afford that. We can't afford it for the stability of the 
countries, Colombia or Central America. And we can't afford it 
for our kids, who are victims of drug abuse.
    Mrs. Torres. Right.
    Ambassador Burns. And so I think they are very important to 
continue. We have a very fine leader, Ambassador Bill 
Brownfield, in INL right now. He is one of our best Foreign 
Service officers. And the proposed 30-percent cut to that 
program is deeply concerning to me and many other people.
    Mrs. Torres. I am very concerned about what is happening in 
Costa Rica and Panama and what they are seeing within the 
Atlantic Ocean, with the increase of narcotics that are there 
from Colombia.
    Thank you, and I yield back.
    Chairman Royce. Thank you.
    We go to Robin Kelly of Illinois.
    Ms. Kelly. Thank you to the witnesses.
    And thank you, Mr. Chair.
    I join my colleagues in expressing concern about the 
President's proposed skinny budget. Maintaining a robust 
diplomatic presence around the world is vital to U.S. national 
interests, as you know.
    The new budget represents a total reduction of roughly 
$17.3 billion, or 31\1/2\ percent, from last year's budget. 
This reckless slashing of the State Department and USAID limits 
America's influence and leadership in the world.
    In the complex global world that we are currently living 
in, we cannot afford to retreat into isolationism. Cutting 
foreign aid is not only bad policy; it is also dangerous, as 
you have heard.
    Military leaders always talk about tackling problems left 
of boom. This is exactly what foreign aid accomplishes. 
Secretary Mattis has made clear that his strategy to defeat 
ISIS involves a strong partnership with the State Department. 
And, as you know, he has said in the past, if you don't fund 
the State Department fully, then I need to buy more ammunition. 
We have said it over and over.
    Research has also proven the importance of aid in combating 
terrorism. According to the RAND Corporation, the evidence 
since 1968 around how terrorism ends indicates that terrorist 
groups are almost never defeated as the result of a military 
campaign. Rather, most groups end because of operations carried 
out by local police or intelligence agencies or because they 
join the political process.
    So, Mr. Chairman, I ask unanimous consent that this report 
be submitted into the hearing record.
    Our international affairs budget funds global diplomacy, 
development, and governance programming, all of which work 
together to increase State's capacity to negotiate peace 
processes. Increase the capacity of states' police and justice 
systems and build healthy communities and civil society 
organizations that can sustainably build peace in their 
communities.
    My question: Ambassador Burns, terrorist organizations like 
ISIS have established footholds in Iraq, Syria, and Northern 
Africa. How would cutting international aid affect U.S. efforts 
to combat terrorism? And, in your view, how do the State 
Department and USAID complement the military's efforts to 
counter ISIS and extremists around the world?
    Ambassador Burns. Thank you, Congresswoman.
    We need a full U.S. Government effort. Our intelligence 
community, our military, obviously, are on the front lines of 
this. But as I suggested earlier, the State Department is the 
organizer of our coalitions against terrorist groups. Secretary 
Tillerson did that last week when he hosted the summit against 
the Islamic State. And we also have these programs to try to 
combat the ideology of these terrorist groups. That takes time 
to work, and I don't think you can expect instant results. And 
so we have to stick with this.
    And I suggested earlier, I just want to say, Secretary 
Powell had this universal view that every part of our 
Government had to be involved. So we shouldn't take one part of 
the government out of the fight.
    Ms. Kelly. And then just as an aside, what do you think is 
the effect that the Secretary is not going to NATO or didn't go 
to NATO? I didn't know if someone asked you that.
    Ambassador Burns. My understanding is that there has now 
been an attempt to work out a different date so that Secretary 
Tillerson, as he should, can be at the meeting with Xi Jinping 
at Mar-a-Lago, and he obviously should be there, but that he 
can also then attend the NATO foreign ministers meeting. I 
think that is a very good result, and I am very pleased, 
congratulate Secretary Tillerson on that.
    Ms. Kelly. Right. I am glad to hear that also.
    And the other thing as my colleague mentioned is that when 
he came here he wanted to take away all foreign aid. And I was 
glad to hear what he said, but--I also agree with what he said, 
but, also, I think that we do need to take a close look at 
evaluating how we are spending the money and making sure we are 
not wasting any money. Because I think that, no matter Democrat 
or Republican, that is everyone's concern. We want to make sure 
the money we are putting forth is used very effectively.
    And I yield back the rest of my time.
    Chairman Royce. Thank you, Robin.
    We go to Mr. Espaillat of New York.
    Mr. Espaillat. Thank you, Mr. Chairman.
    Let me first congratulate you, Mr. Chairman, and the 
members of this committee, because in the short time I have 
been here, this is perhaps the most important effort that I see 
to speak in a way that we can reach a consensus. And I think 
that members from both sides of the aisle have expressed their 
interest in having a real budget for State Department and for 
our men and women of the State Department to do the work that 
is so important to our Nation.
    And I think it is important, also, for the American people 
to hear the negative impacts the cutting of the State 
Department would have on our obligations abroad. As my 
colleagues and I have stated throughout this hearing and time 
and time again, Trump's budget is a threat to national security 
and is a threat to the interests of the American people.
    This so-called skinny budget, which I call an anemic 
budget, prioritizes building border walls over diplomacy. If 
Trump is serious about curbing ``illegal immigration,'' then we 
need to invest in the root causes of child and family migration 
from Central America, particularly from the Triangle. If Trump 
is serious about keeping Americans safe, then we need to listen 
to more than 120 retired U.S. generals and admirals who have 
warned us that elevating and strengthening diplomacy and 
development, alongside the fence, are critical to keeping 
Americans safe.
    If Trump is serious about draining the swamp, then the 
President needs to release his tax returns so the American 
people can rest assured that his proposed budget does not 
conflict with investment abroad. The American people deserve to 
know who the President's overseas partners are, who his 
creditors are, and where he has invested.
    If Trump is serious about stopping the illegal drug flow, 
then we need to be investing more and more, not cutting back, 
on programs like the Caribbean Basin Security Initiative.
    And, finally, if Trump is serious about making America 
great again, than I urge all of my colleagues to reject this 
anemic budget. This budget gambles with American lives and 
makes Americans last. As members of this committee, we have 
seen that making an investment abroad is not about charity; it 
is about keeping violence and hatred from America's shore.
    I hope the committee rejects this budget and will, instead, 
prioritize our commitments abroad, including investing, for 
example, in emergency preparedness in the Caribbean, the U.S. 
strategic engagement in Central America, funding for the 
Caribbean Basin Security Initiative, investing in energy 
potential in many places throughout Latin America and the 
Caribbean, and increasing funding for the United States Agency 
for International Development.
    My questions are to you, Mr. Ambassador. I mentioned the 
issue of the tax returns, Mr. Trump's tax returns. And, 
obviously, if we adopt this budget, our diplomats will not have 
the necessary tools to be able to do their job efficiently and 
be able to determine whether, in fact, they are advocating for 
our diplomatic goals and objectives or, in fact, may be pushing 
or looking to advance Trump's profits abroad.
    Do you think it is important that the tax returns are 
released so that we were able to have a diplomatic corps that 
is more transparent in the way they do business, the way they 
conduct diplomacy across the globe, and ensure that there are 
no conflicts of interest with the Trump profit-making machine?
    Ambassador Burns. Well, Congressman, I am a foreign policy 
person. I normally don't express views on domestic issues. But, 
as a citizen, I would hope the President would emulate all of 
his predecessors for many decades and release his tax returns.
    I would also hope that there would be a full investigation 
of Russia's interference in our election. It seems to me there 
should be a bipartisan commission to do that now because of the 
breakdown of trust, apparently, in the House Intelligence 
Committee.
    The last thing I would like to say is that the most 
disturbing part of the budget, to me, as a former career 
official, is the explicit lack of faith in government. And I 
will be the first to say that government is not perfect. We do 
have to pay attention to reform. But trying to deconstruct the 
government and hollow it out, it belies the truth that 
government can do an enormous amount of good in the world. And 
look at all of our great Secretaries of States and Presidents, 
Republicans and Democrats, who built the liberal world order. 
They didn't fail, and we are not failing as a country.
    I think that is the most disturbing part of this, is that 
this is a slap in the face to our diplomats, this 30-percent 
cut.
    Mr. Espaillat. Thank you, Mr. Chairman. I think I have 
exhausted all my time.
    Chairman Royce. Thank you Mr. Espaillat.
    We now go to Tom Suozzi from New York.
    Mr. Suozzi. Thank you, Mr. Chairman.
    And thank you to everyone for sticking around. I appreciate 
it very much. And I appreciate your testimony and your 
expertise and the lives that you have devoted to this very 
important work that you do.
    I think that we have heard so many people talk about why 
this cut is just so absurd. I don't think that there is any--
there is very little disagreement that this just doesn't make 
any sense. We have heard it from people in the military. We 
have heard it from the diplomatic corps. We have heard it from 
experts like yourselves, from policy experts, from Republicans, 
from Democrats. No one really thinks this makes much sense, to 
cut this amount of money.
    But I do want to ask the question. In every large 
organization, there is waste, fraud, and abuse. There are 
things that don't work well. What would be your two best 
suggestions to save money in this area of the budget? And it 
has to be worth--you know, it can't be six people or five 
people. It has to be something big.
    Ambassador Burns. Well, I am biased. I serve in the Foreign 
Service. I think we are so small that to somehow think you can 
downsize the number of people in the civil and Foreign Service 
and be successful, I don't think it will work.
    So where can you look? If you are looking at the State 
Department and USAID, I think you have to look at the aid 
budget and make sure that its conditional, make sure that we 
are tough-minded. We can't be all things to all people. I don't 
think we should have an aid budget in every country in the 
world. We should be very selective, as I think Dr. Krasner was 
suggesting. And if that is the question----
    Mr. Suozzi. That is the question.
    Ambassador Burns [continuing]. Err on the----
    Mr. Suozzi. So was there a particular area of aid that you 
think would be a good place to cut? You are an expert; I am 
not.
    Ambassador Burns. Well, I think that we have to look hard 
at some of the U.N. funding. I support many of the U.N. 
programs but not all of them----
    Mr. Suozzi. As do I, but there is inefficiency and need for 
reform there.
    Ambassador Burns [continuing]. But not all of them. And 
there have been some problems in the conduct of some of the 
peacekeeping missions--in Congo, for instance.
    And so we have to be a very tough internal critic of those 
programs. That might save money but, more importantly, might do 
some good as well.
    Mr. Suozzi. You didn't think you were going to get that 
question from me, did you?
    Ms. Pletka. No. I am delighted. I am delighted to answer it 
and to not to have to hear about bullets again.
    The United Nations, we should reduce our assessment in 
peacekeeping. We should try and use our leverage within the 
United Nations to end some of the peacekeeping operations that 
have existed for longer than most of us have been alive and are 
highly ineffective--UNMOGIP, UNIFIL, UNTSO, I could go on. I 
think that we should reduce our assessment to the United 
Nations and withdraw from some of the suborganizations of the 
U.N. that don't serve our interests and are, in fact, created 
solely to attack the state of Israel.
    I think we should look at assistance programs, economic 
support funds that go to--and budgetary support, which is 
basically cash handouts, that go to places like Pakistan, that 
go to Egypt, and, yes, economic support funds to Israel as 
well. Those are big chunks of money. They should be reassessed 
every single year.
    Mr. Suozzi. So you think we should be looking at the U.N., 
Pakistan, Egypt, and Israel? Those are the main places that you 
would----
    Ms. Pletka. Those are the main recipients of our foreign 
assistance programs. Jordan is in there, as well, but I think 
there is a much stronger case to be made that Jordan stands on 
the front lines and is very supportive in a variety of ways.
    I think our military assistance, our FMF, to Israel should 
continue. It is the vast bulk of our assistance to Israel, and 
it serves us as well as the state of Israel. But I think our 
economic support funds provided to Israel, given that the per 
capita income of the state of Israel is higher than in certain 
sectors of the United States, is something that we could 
revisit. I think that the Israeli Government would be amenable 
to that.
    Mr. Suozzi. I just want to say very strongly that, when you 
look at the front lines, I think Israel is really on the front 
lines.
    Ms. Pletka. That is why I said the FMF should continue. But 
do they need our economic support funds?
    Mr. Suozzi. Okay. Well, thank you very much.
    Mr. Chairman, thank you so much.
    Chairman Royce. Thank you, Tom.
    I just would say in closing, I would like to thank our 
witnesses for being here today.
    These are critical issues. I think Congress needs to be 
fully engaged. I look forward to continuing to work with the 
members here as we seek to ensure that the international 
affairs budget is efficient and effective and that budget 
reductions do not have unintended consequences for the security 
interests, the economic interests, and the humanitarian 
interests of the United States.
    So thank you very much to our panel.
    We stand adjourned.
    [Whereupon, at 12:36 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 <F-dash>\<box><Rx><bullet><box><script-l> <lrg-box><F-dash><Register>\

 Material submitted for the record by the Honorable Eliot L. Engel, a 
         Representative in Congress from the State of New York
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 <F-dash>\<box><Rx><bullet><box><script-l> <lrg-box><F-dash><Register>\

 Material submitted for the record by the Honorable Eliot L. Engel, a 
         Representative in Congress from the State of New York
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         <F-dash>\<Hoarfrost><star><box><natural><acctof>a<Rx> 
                      <lrg-box><F-dash><Register>\

  Material submitted for the record by the Honorable Brad Sherman, a 
        Representative in Congress from the State of California
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         <F-dash>\<Hoarfrost><star><box><natural><acctof>a<Rx> 
                      <lrg-box><F-dash><Register>\

  Material submitted for the record by the Honorable Brad Sherman, a 
        Representative in Congress from the State of California
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


              <F-dash>\<Hoarfrost><careof><natural><box>s\

   Material submitted for the record by the Honorable Albio Sires, a 
        Representative in Congress from the State of New Jersey
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


           <F-dash>\<triangle><box><brit-pound>t<star><star> 
                      <lrg-box><F-dash><Register>\

Material submitted for the record by the Honorable Theodore E. Deutch, 
         a Representative in Congress from the State of Florida
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         <F-dash>\<dot-box><box><script-l><script-l><variable> 
                      <lrg-box><F-dash><Register>\

 Material submitted for the record by the Honorable Robin L. Kelly, a 
         Representative in Congress from the State of Illinois
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          <F-dash>\<func.-of><pound><natural><natural><box>s\

 Material submitted for the record by the Honorable Norma J. Torres, a 
        Representative in Congress from the State of California
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                     <Hoarfrost><F-dash><Register>\
                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 <F-dash>\<box><Rx><bullet><box><script-l> <because><F-dash><Register>\
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


             <F-dash>\<dot-box><box>at<careof><Rx><bullet> 
                     <because><F-dash><Register>s\

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 <F-dash>\<Hoarfrost><star><star><Rx><box><careof><star><box><natural> 
                     <because><F-dash><Register>s\

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
